<html>
<title> - H.R. 2561, IMPROVING ACCESS TO WORKERS' COMPENSATION FOR INJURED FEDERAL WORKERS ACT AND H.R. 697, FEDERAL FIRE FIGHTERS FAIRNESS ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
   H.R. 2561, IMPROVING ACCESS TO WORKERS' COMPENSATION FOR INJURED 
                            FEDERAL WORKERS
      ACT AND H.R. 697, FEDERAL FIRE FIGHTERS FAIRNESS ACT OF 2005

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              May 26, 2005

                               __________

                           Serial No. 109-20

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-548                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                   CHARLIE NORWOOD, Georgia, Chairman

Judy Biggert, Illinois, Vice         Major R. Owens, New York
    Chairman                         Dennis J. Kucinich, Ohio
Ric Keller, Florida                  Lynn C. Woolsey, California
John Kline, Minnesota                Timothy H. Bishop, New York
Kenny Marchant, Texas                John Barrow, Georgia
Tom Price, Georgia                   George Miller, California, ex 
Thelma Drake, Virginia                   officio
John A. Boehner, Ohio, ex officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 26, 2005.....................................     1

Statement of Members:
    Bishop, Hon. Timothy H., a Representative in Congress from 
      the State of New York, prepared statement of...............    44
    Capps, Lois, a Representative in Congress from the State of 
      California, prepared statement of..........................    43
    Norwood, Hon. Charlie, Chairman, Subcommittee on Workforce 
      Protections, Committee on Education and the Workforce......     2
        Prepared statement of....................................     2
    Owens, Hon. Major R., Ranking Member, Subcommittee on 
      Workforce Protections, Committee on Education and the 
      Workforce..................................................     3
        ``W. Plan Stiffs Heroes; Nixes WTC Comp Pay,'' New York 
          Post article...........................................    48

Statement of Witnesses:
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia..........................................     6
        Prepared statement of....................................     8
    Johnson, James B., 16th District Vice President, 
      International Association of Fire Fighters, Washington, DC.     9
        Prepared statement of....................................    11
    Kohlhepp, William C., MHA, PA-C, Assistant Professor and 
      Associate Director, Physician Assistant Program, Quinnipiac 
      University, Hamden, CT.....................................    28
        Prepared statement of....................................    30
    Shufro, Joel, Executive Director, New York Committee for 
      Occupational Safety and Health, New York, NY...............    15
        Prepared statement of....................................    17
    Towers, Jan, PhD, NP-C, CRNP, FAANP, Director of Health 
      Policy, American Academy of Nurse Practitioners, 
      Washington, DC.............................................    36
        Prepared statement of....................................    37

Additional Materials Supplied:
    American Nurses Association, statement submitted for the 
      record.....................................................    45



   H.R. 2561, IMPROVING ACCESS TO WORKERS' COMPENSATION FOR INJURED 
FEDERAL WORKERS ACT AND H.R. 697, FEDERAL FIRE FIGHTERS FAIRNESS ACT OF 
                                  2005

                              ----------                              


                         Thursday, May 26, 2005

                     U.S. House of Representatives

                  Subcommittee on Workforce Protections

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:33 a.m., in 
room 2175, Rayburn House Office Building, Hon. Charlie Norwood 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Norwood, Kline, Marchant, Price, 
Drake, Owens, Kucinich, Woolsey, and Bishop.
    Staff present: Kevin Frank, Professional Staff Member; Ed 
Gilroy, Director of Workforce Policy; Donald McIntosh, 
Legislative Assistant; Jim Paretti, Workforce Policy Counsel; 
Molly McLaughlin Salmi, Deputy Director of Workforce Policy; 
Deborah L. Emerson Samantar, Committee Clerk/Intern 
Coordinator; Kevin Smith, Senior Communications Advisor; Margo 
Hennigan, Legislative Assistant/Labor; Marsha Renwanz, 
Legislative Associate/Labor; Peter Rutledge, Senior Legislative 
Associate/Labor.
    Mr. Norwood. A quorum being present, the Subcommittee on 
Workforce Protections of the Committee on Education and the 
Workforce will now come to order.
    We are meeting today to hear testimony on H.R. 697, the 
Federal Fire Fighters Fairness Act of 2005, and H.R. 2561, the 
Improving Access to Workers Compensation for Injured Federal 
Employees Act.
    Under Committee Rule 12(b), opening statements are limited 
to the Chairman and Ranking Minority Member. If other Members 
have statements, they, of course, will be included in the 
record.
    With that, I ask unanimous consent for the hearing record 
to remain open for 14 days.
    This will allow Members' statements and other extraneous 
material referenced during the hearing to be included in the 
hearing record.
    Without objection, so ordered.

 STATEMENT OF HON. CHARLIE NORWOOD, CHAIRMAN, SUBCOMMITTEE ON 
WORKFORCE PROTECTIONS, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Both of these bills would amend the Federal Employees' 
Compensation Act, otherwise known as FECA. FECA is the 
comprehensive workers' compensation program for Federal 
employees. The program provides important benefits and services 
to Federal workers who have suffered economic hardship from a 
work-related injury or death.
    The Subcommittee has held a number of oversight hearings on 
the FECA program over the past several years. The last hearing, 
held in May of last year, provided a broad overview of the FECA 
program.
    We looked at what could be done to maximize the benefits 
for workers and improve the efficiency and effectiveness of the 
program.
    Today's hearing reinforces those themes and will focus on 
two proposals that would increase access to the program for 
injured Federal workers.
    Our first panel of witnesses will testify on H.R. 697, a 
bipartisan bill introduced by Representative Jo Ann Davis. The 
bill would create a presumptive disability under the law such 
that certain diseases incurred by a Federal firefighter would 
be presumed to be work-related.
    Our second panel of witnesses will testify on H.R. 2561, a 
bipartisan bill that Rob Andrews, my colleague on the Full 
Committee, and I introduced earlier this week. H.R. 2561 would 
allow injured Federal workers to submit medical documentation 
signed by a physician assistant or a nurse practitioner in 
support of a claim for benefits.
    This is an important bill that would improve access to 
compensation benefits for injured Federal workers, especially 
those in rural areas with limited options for medical 
treatment.
    I would like to thank the witnesses for making themselves 
available to share their expertise with us today. We appreciate 
you taking time out of what we know is a busy schedule to 
appear before the Subcommittee, and we look very forward to 
your testimony.
    I now yield to the distinguished gentleman from New York, 
the Ranking Member on the Subcommittee, Major Owens, for his 
opening statement.
    [The prepared statement of Chairman Norwood follows:]

Statement of Hon. Charlie Norwood, Chairman, Subcommittee on Workforce 
         Protections, Committee on Education and the Workforce

    The Subcommittee is meeting today to hear testimony on two bills: 
H.R. 697, the ``Federal Firefighters Fairness Act of 2005,'' and H.R. 
2561, the ``Improving Access to Workers' Compensation for Injured 
Federal Workers Act.''
    Both bills would amend the Federal Employees' Compensation Act, 
otherwise known as ``FECA.'' FECA is the comprehensive workers' 
compensation program for federal employees. The program provides 
important benefits and services to federal workers who have suffered 
economic hardship from a work-related injury or death.
    This Subcommittee has held a number of oversight hearings on the 
FECA program over the past several years. The most recent hearing, held 
in May of last year, provided a broad overview of the FECA program. We 
looked at what could be done to maximize the benefits for workers and 
improve the efficiency and effectiveness of the program. Today's 
hearing reinforces those themes, and will focus on two proposals that 
would increase access to the program for injured federal workers.
    Our first panel of witnesses will testify on H.R. 697, a bipartisan 
bill introduced by Representative Jo Ann Davis. The bill would create a 
``presumptive disability'' under the law, such that certain diseases 
incurred by a federal firefighter would be presumed to be work-related.
    Our second panel of witnesses will testify on H.R. 2561, a 
bipartisan bill that my colleague on the full committee, Rob Andrews, 
and I introduced earlier this week. H.R. 2561 would allow injured 
federal workers to submit medical documentation signed by a physician 
assistant or a nurse practitioner in support of a claim for benefits. 
This is an important bill that will improve access to compensation 
benefits for injured federal workers, especially those in rural areas 
with limited options for medical treatment.
    I would like to thank the witnesses for being available to share 
their expertise with us today. We appreciate you taking time out from 
your busy schedules to appear before the Subcommittee. We look forward 
to your testimony.
    I now recognize the gentleman from New York, the Ranking Member on 
the Subcommittee, Major Owens, for his opening statement.
                                 ______
                                 

STATEMENT OF HON. MAJOR R. OWENS, RANKING MEMBER, SUBCOMMITTEE 
   ON WORKFORCE PROTECTIONS, COMMITTEE ON EDUCATION AND THE 
                           WORKFORCE

    Mr. Owens. Thank you very much, Mr. Chairman. I appreciate 
the fact that today the task before us is a bipartisan and 
positive one.
    As we approach Memorial Day, I really thought that we are 
going to do some positive things for working families. Working 
families, of course, bear the brunt of the sacrifices in the 
battlefields of the world for our nation. They are bearing that 
burden in Iraq now, and they did so in Vietnam and on D-Day and 
the Battle of the Bulge. Ninety-five percent of the people in 
the armed forces are from working families, and we look forward 
to the day when we have a Department of Labor and a government 
and administration which cares more for our working families.
    Certainly today is an unusual and very much appreciated 
step in the direction of trying to improve things for working 
families.
    I am very pleased that this hearing focuses on bills 
designed to strengthen protections for American workers, in 
contrast to legislation that we often have which subverts or 
undermines such safeguards. Both bills before us this morning 
would enhance worker protections afforded by the Federal 
Employees' Compensation Act, FECA.
    The immediate aftermath of the devastating terrorist 
bombing attacks on the Murrah Federal Building in Oklahoma City 
and the World Trade Center in New York City remind us all of 
just how crucial the FECA program can prove to be. Services 
provided under FECA, for example, proved invaluable in 
assisting surviving family members of those killed in the 
Oklahoma City bombing.
    Likewise, medical care tied to the FECA program helped make 
the difference for some of the workers wounded during the 
tragic events of 9/11 between a faster recovery and a series of 
risky health setbacks.
    In addition to providing critical assistance in the case of 
national emergencies, over the years FECA has helped countless 
other Federal works injured or made ill in the course of 
carrying out their duties, as well as surviving family members 
in the event of worker deaths.
    Let me turn now to H.R. 697, the first bill before us at 
this morning's hearing.
    This bill would give Federal firefighters the same 
presumptive disability protections already afforded 
firefighters in 40 states. In other words, the disability or 
death of Federal firefighters from a range of specified 
diseases would be presumed as a direct result of occupational 
exposure.
    The exposure of firefighters to certain infectious diseases 
include tuberculosis, HIV, hepatitis, rabies, has received more 
press attention that some of the other diseases specified in 
this bill.
    Yet, the connections between the day-to-day duties of fire 
protection personnel, including firefighters, paramedics, 
emergency medical technicians, rescue workers, as ambulance and 
hazardous materials workers, and there are increased risks of 
exposure to infectious illnesses, a range of cancers, and heart 
and lung diseases, have already been well documented.
    I understand that the lead sponsor of H.R. 697, 
Representative Jo Ann Davis, will testify on the first panel of 
witnesses, and I ask her to add me as a cosponsor to this 
important bill. The lead cosponsor of H.R. 697, Representative 
Lois Capps, also wanted to be here today to testify, but she 
had a scheduling conflict.
    Mr. Chairman, I ask that a written statement by 
Representative Capps be included in the record in its entirety.
    Mr. Norwood. So ordered.
    Mr. Owens. At this juncture, I would like to acknowledge 
Mr. Joe Shufro, who is Mr. Occupational Health and Safety 
himself in New York State, Mr. Shufro of the New York Committee 
on Safety and Health, and I want to welcome him as an important 
witness to this hearing.
    Mr. Shufro and NYCOSH have played a pivotal role in 
addressing the critical health problems for workers and 
residents that emerge and are still emerging as a result of the 
devastation wrought by the attacked of 9/11. The clean-up 
workers of Ground Zero deserve the same presumptive disability 
protections that H.R. 697 would grant to Federal firefighters.
    We need to do much more than just wax eloquently about the 
debt we owe these brave workers, many of whom volunteered to 
clean up Ground Zero at great personal risk to themselves and 
their families.
    We need to provide these workers, a number of whom will 
never be able to work again, with real medical relief and wage 
replacement.
    It is absolutely unconscionable that the Bush 
administration in the fiscal 2006 budget request is attempting 
to rescind more than $120 million in workers compensation funds 
for the 9/11 workers. Furthermore, it is a disgrace that 
Governor Pataki, Governor of New York, is refusing to sign 
bills to afford presumptive disability protections to 9/11 
workers. I do not know any issues that have more to do with 
morality than these.
    Until we address the critical needs of these brave workers, 
as well as all the residents of Manhattan, Brooklyn, and other 
New York City burroughs affected, we have failed to meet our 
moral responsibility.
    So, I commend Mr. Shufro and his great organization for 
remaining on the front lines of this important fight.
    I further ask, Mr. Chairman, that a New York Post article 
of May 8, 2005, which was posted on the NYCOSH website, be 
entered into the record its entirely. The article is entitled 
``W plan stiffs heros.''
    [The article referred to is on page 48 of this document.]
    Mr. Norwood. Do we get a chance to look that over? I am 
sure----
    Mr. Owens. Yes.
    Mr. Norwood [continuing]. That will not be any problem, 
just give us a chance to look it over.
    Mr. Owens. It is from the New York Post. It's a great 
paper.
    Mr. Norwood. I do not read any New York papers, you know.
    I have enough trouble with the Atlanta Journal.
    Mr. Owens. My time is almost up, but I would like to make a 
few comments about H.R. 2561 before closing.
    Mr. Chairman, your bill is an important piece of 
legislation, as you know. I cosponsored it during the 108th 
Congress.
    However, the American Nurses Association and Service 
Employees International Union recently pointed out to me that 
the bill would be improved immeasurably by substituting a 
broader category of, quote ``advanced practice registered 
nurses'' for the narrow subset of nurse practitioners.
    For example, certified nurse anesthetists administer some 
65 percent of all anesthetics delivered to U.S. patients every 
year, but they are precluded from FECA coverage in your bill.
    Mr. Chairman, I request that a forthcoming written 
statement by the American Nurses Association about this issue 
be later included in the record.
    In closing, I applaud you for holding this hearing.
    I look forward to hearing the testimony of all the 
witnesses.
    Mr. Norwood. Thank you very much, Mr. Owens.
    I am, frankly, delighted that you approve of this hearing.
    I feel it incumbent upon me to make sure you got home for 
this vacation in a good mood, so maybe this will start us off.
    We, today, have two panels of witnesses.
    Our first panel will testify on H.R. 697. We will begin 
with testimony offered by the gentlelady from Virginia, the 
Honorable Jo Ann Davis, the first elected female Republican to 
the U.S. House of Representatives from the Commonwealth.
    Representative Davis has represented the First District of 
Virginia since she was elected in November of 2000. In addition 
to her Committee work on the House Armed Services Committee, 
International Relations, and the Permanent Select Committee on 
Intelligence, Representative Davis serves as Chair of the 
Intelligence Committee's Subcommittee on Intelligence Policy. 
We look forward to hearing her insight, and as the sponsor of 
H.R. 697, on the need for this important legislation.
    Next, we will hear from Mr. James Johnson, 16th District 
Vice President of the International Association of Fire 
Fighters, located right here in Washington, D.C., and the final 
witness on our first panel is Mr. Joel Shufro, executive 
director of the New York Committee on Safety and Health.
    Before the gentlelady from Virginia begins her testimony, I 
would like to remind our Members that we will impose a 5-minute 
limit on all questions. I understand Ms. Davis can only be with 
us for a limited time today and must excuse herself after 
offering her testimony. Therefore, if any of our Members have 
questions for her, we will forward them to her and include the 
answers and questions in the hearing record.
    I would like to point out the timer system up there. Red 
means time's up. Green means it's time to start. Yellow gives 
you a little notion that we are getting close.
    We all have a copy of your testimony.
    I would ask you to summarize in that 5-minute period so we 
can run a orderly hearing here.
    Representative Davis, you are recognized for 5 minutes.

 STATEMENT OF HON. JO ANN DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Ms. Davis. Thank you, Mr. Chairman, and Mr. Owens, we will 
make sure you are a cosponsor right away.
    Mr. Chairman and Members of the Subcommittee, I want to 
thank you for the opportunity to discuss with you an issue that 
is very important to me and even more important to the brave 
men and women who defend Federal installations around the 
country.
    As the wife of a now-retired municipal battalion fire 
chief, I know the dangerous work that our firefighters do, and 
we owe them a tremendous debt of gratitude. That is why I am 
proud to sponsor H.R. 697, the Federal Firefighters Fairness 
Act of 2005.
    Federal firefighters risk their lives protecting our 
nation's most vital interest.
    They face some of the most difficult and hazardous working 
conditions in the country, guarding military installations, 
nuclear facilities, VA hospitals, and the like.
    As such, they are daily exposed to stress, smoke, heat, 
toxic substances that greatly increase their chances to 
contract heart disease, lung disease, and various types of 
cancer. May I point out that many times they do not even know 
when they are being exposed to these hazardous materials.
    A paper by the International Association of Fire Fighters 
states that during the latest 10-year period, professional 
firefighters experienced 342 line-of-duty deaths, 502 
occupational disease deaths, 343,861 injuries, and 6,632 forced 
retirements due to occupationally induced diseases or injuries, 
and almost monthly, my husband calls me to tell me about a 
young fellow or a young woman from our local fire department 
that has either contracted cancer or heart disease or some 
disease that they should not have contracted at an early age, 
and we are losing firefighters much more quickly than we should 
be.
    The IFF report continues that, of the injuries reported, 
approximately 80 percent occur while at the emergency scene. 
Data shows that more than 40 percent of all firefighters can be 
expected to be injured at least once during the course of the 
year. Occupational diseases such as heart disease and cancer 
constitute more than 90 percent of all reported firefighter 
deaths when their occurrences are combined. Additionally, the 
IFF reports that technology has created a distinct difference 
in the modern firefighting environment. The report explains 
that firefighters are often exposed to extremely high 
concentrations of a large number of toxic and carcinogenic 
chemical compounds.
    Chemicals such as carbon monoxide and soot are natural 
products of combustion and have always been present at fires. 
However, the combustion of modern synthetic and plastic 
material produces many highly toxic and carcinogenic compounds 
that were not found in fires three or four decades ago.
    As a result, the modern firefighter faces a number of 
potentially serious new health threats, including many that can 
develop over several years of exposure.
    Currently, 40 states have presumptive disability laws that 
presume that cardiovascular diseases, certain cancers and 
infectious diseases are job-related for purposes of workers 
compensation and disability retirement unless proven otherwise, 
but our Federal firefighters' compensation and retirement 
benefits are not provided with the same benefits that these 40 
states provide.
    This requirement places a substantial burden on Federal 
firefighters who suffer from occupational diseases, because 
they have to, by Federal law, prove that they came into contact 
with these substances, which is--and specify where the precise 
cause of the injury or illness comes from. It is very hard to 
do, because firefighters do not know, many times, when they are 
exposed to these substances.
    To give you a for-instance, when I was pregnant with our 
first child, my husband contracted hepatitis. It has stayed 
with him forever, and it has caused a lot of problems for him, 
and he contracted it, we think, on an ambulance. We do not know 
from who, what, when, where.
    This happens even more so to our Federal firefighters 
because of the types of buildings and types of fires and 
incidences that they have to go on.
    The burden of proof is unacceptably high for firefighters 
to meet, because they are constantly exposed to a myriad of 
harmful substances and dangerous conditions. Working in such a 
hazardous environment, it is often impossible to precisely 
identify when and where a firefighter contracted a certain 
disease.
    My legislation, H.R. 697, simply creates the presumption 
that Federal firefighters who become disabled by heart and lung 
disease, certain cancers, and certain other infectious diseases 
contracted the illness on the job. Additionally, if a 
firefighter contracts an illness that is clearly not caused by 
his or her firefighting duties, my bill recognizes that the 
Federal Government should not be responsible for covering those 
costs, and I have much more to say here, Mr. Chairman, but I 
know how important and how vital the time is, and like you say, 
you have my written statement.
    I just cannot stress enough how important it is that our 
Federal firefighters get the same benefits that are offered to 
firefighters in 40 other states.
    Our Federal firefighters, in my opinion, are put at much 
more risk, especially since 9/11, than many of our state and 
local firefighters.
    I hope that the Committee will read my complete statement, 
that you will listen carefully to the testimonies today, and 
that if you have any questions, you will contact me, and I may 
be a little prejudiced, because I'm married to a firefighter, 
but after 30 years of being married to him, I have seen what 
happens with our firefighters, and I just ask for your 
consideration of the bill.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Davis follows:]

 Statement of Hon. Jo Ann Davis, a Representative in Congress From the 
                           State of Virginia

    Mr. Chairman, and Members of the Subcommittee, I want to thank you 
for the opportunity to discuss with you an issue that is very important 
to me, and even more important to the brave men and women who defend 
federal installations around the country. As the wife of a now-retired 
municipal battalion fire chief, I know firsthand the vital and 
dangerous work that our nation's firefighters perform every single day. 
We all owe them a tremendous debt of gratitude. That is why I am proud 
to sponsor H.R. 697, the Federal Firefighters Fairness Act of 2005.
    Federal firefighters risk their lives protecting our nation's most 
vital interests. They face some of the most difficult and hazardous 
working conditions in the country guarding military installations, 
nuclear facilities, and VA hospitals. As such, they are daily exposed 
to stress, smoke, heat, and toxic substances that greatly increase 
their chances to contract heart disease, lung disease, and various 
types of cancer.
    A paper by the International Association of Fire Fighters (IAFF) 
states that during the latest ten year period, professional 
firefighters experienced 342 line-of-duty deaths, 502 occupational 
disease deaths, 343,861 injuries and 6,632 forced retirements due to 
occupationally induced diseases or injuries. The IAFF report continues 
that of the injuries reported, approximately 80 percent occur while at 
the emergency scene. Data shows that more than 40 percent of all 
firefighters can be expected to be injured at least once during the 
course of a year. Occupational diseases such as heart disease and 
cancer constitute more than 90 percent of all reported firefighter 
deaths when their occurrences are combined.
    Additionally, the IAFF reports that technology has created a 
distinct difference in the modern firefighting environment. The report 
explains that firefighters are often exposed to extremely high 
concentrations of a large number of toxic and carcinogenic chemical 
compounds. Chemicals such as carbon monoxide and soot are natural 
products of combustion and have always been present at fires. However, 
the combustion of modern synthetic and plastic materials produces many 
highly toxic and carcinogenic compounds that were not found in fires 
even three or four decades ago. As a result, the modern firefighter 
faces a number of potentially serious new health threats, including 
many that can develop over several years of exposure.
    Currently, 40 states have presumptive disability laws that presume 
that cardiovascular diseases, certain cancers and infectious diseases 
are job-related for purposes of workers compensation and disability 
retirement unless proven otherwise. However, under federal law, 
compensation and retirement benefits are not provided to federal 
employees who suffer from occupational illnesses unless they can 
specify the precise cause of their illness. This requirement places a 
substantial burden on federal firefighters who suffer from occupational 
diseases, to receive fair and just compensation or retirement benefits. 
Federal firefighters currently must identify the precise cause of a 
disease in order for it to be considered job-related. This burden of 
proof is unacceptably high for firefighters to meet because they are 
constantly exposed to a myriad of harmful substances, and dangerous 
conditions. Working in such a hazardous environment, it is often 
impossible to precisely identify when and where a firefighter 
contracted a certain disease.
    My legislation, H.R. 697, simply creates the presumption that 
federal firefighters who become disabled by heart and lung disease, 
certain cancers, and certain other infectious diseases contracted the 
illness on the job. Additionally, if a firefighter contracts an illness 
that is clearly not caused by his or her firefighting duties, my bill 
recognizes that the federal government should not be responsible for 
covering those costs. However, in the case of the vast majority of 
federal firefighters who contract certain illnesses, it should be 
presumed that their illness is a result of their service to our country 
by running into burning buildings while others are running out of them.
    The Federal Firefighters Fairness Act will bring federal law in 
line with state laws that afford a majority of municipal firefighters a 
presumptive disability benefit. This bill will help our nation's 
federal firefighters receive fair and equitable compensation or 
retirement benefits as a result of workplace illnesses. There is no 
reason why the federal government cannot treat its firefighters with 
the same respect as 40 states now treat their municipal firefighters. 
We owe our federal first responders the same occupational safeguards 
and benefits our civilian firefighters enjoy.
    Mr. Chairman, thank you for holding this hearing today on 
legislation pertaining to compensation for injured federal workers, and 
for including the Federal Firefighters Fairness Act of 2005. As I have 
stated before, the unique hazards associated with firefighting demand 
that federal firefighters are afforded a presumptive disability benefit 
similar to laws already on the books in 40 states. As you consider 
these issues, I urge you and your fellow Committee Members to act on 
H.R. 697, in order to provide our brave federal firefighters with the 
support that they deserve. Thank you again for including this important 
issue with today's hearing.
                                 ______
                                 
    Mr. Norwood. Thank you, Ms. Davis.
    It is all right for you to be prejudiced if you are married 
to a firefighter.
    I think that makes sense.
    We appreciate your coming this morning, and you are now 
excused.
    Ms. Davis. Thank you.
    Mr. Norwood. Mr. Johnson, you are now recognized for 5 
minutes.

 STATEMENT OF JAMES B. JOHNSON, 16TH DISTRICT VICE PRESIDENT, 
   INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS, WASHINGTON, DC

    Mr. Johnson. Thank you, Mr. Chairman, Ranking Member, 
Members of the Committee.
    I am James Johnson, and I am the 16th District vice 
president of the International Association of Fire Fighters. I 
represent the Federal firefighters for the IFF. On behalf of 
General President Jake Berger and the 267,000 men and women of 
the IFF, it is my honor to testify before you today regarding 
H.R. 697, a bipartisan bill which was introduced by 
Representatives Jo Ann Davis and Lois Capps. This bill would 
bring a much needed benefit to the firefighters that I 
represent in the Federal sector.
    Federal firefighters, although not as visible to the public 
eye as their counterparts in the municipal sector, play an 
essential role in protecting the vital interests of the United 
States.
    Over 15,000 Federal firefighters face some of the most 
difficult and hazardous working conditions in the country 
guarding military installations, VA hospitals, and other 
Federal assets and lands.
    Without their dedicated service, our nation would be less 
secure.
    The job of a Federal firefighter is unique in many ways. 
When compared to other occupations in the Federal civil 
service, they are routinely exposed to carcinogens, infectious 
diseases, and other occupational hazards. Federal firefighters 
respond to all the same types of emergencies as their 
counterparts in the cities, including medical emergencies, 
hazardous materials incidents, structural fires, and aircraft 
emergencies, but they also face unique hazards involving 
incidents at weapons depots, facilities that conduct classified 
work and research, and emergencies aboard naval vessels.
    They respond to these incidents often without adequate 
information about the dangers they may encounter. For instance, 
an EMS call can involve a chemical spill, and a structural fire 
can actually be the result of an ammunition test failure. 
Although firefighters take precautions and wear protective 
gear, as with all aspects involving occupational hazards, 
exposures do and can happen. As a result, they are far more 
likely to suffer from heart disease, lung disease, and cancer 
than other workers, and as firefighters, increasingly assume 
the role of the nation's leading providers of emergency medical 
services, they are also exposed to infectious diseases. These 
illnesses are now among the leading causes of death and 
disability for firefighters.
    Mr. Chairman, in the interest of time, I will not go into 
great detail, but as my written testimony will indicate, there 
is an abundance of medical reasons why firefighters acquire 
these illnesses and diseases at a higher level and a higher 
rate than the average person.
    It is important, however, to note that, under the Federal 
Employees' Compensation Act, compensation and/or retirement 
benefits are not provided to Federal employees who suffer from 
occupational illnesses unless they can specify the conditions 
and the exact situation in their employment to which the 
disease is attributed.
    In order to qualify for these benefits under current law, 
Federal firefighters must be able to pinpoint the precise 
incident or exposure that caused the disease in order for it to 
be determined job-related.
    This burden of proof is extraordinarily difficult for 
firefighters to meet, because they respond to a variety of 
emergency calls, constantly working in different environments 
under varied conditions.
    H.R. 697 was named the Federal Firefighter Fairness Act 
because the main reason for the legislation is to treat Federal 
firefighters fairly.
    H.R. 697 would create a presumption that firefighters who 
become disabled because of heart or lung disease or certain 
cancers or infectious diseases contracted their illness on the 
job. H.R. 697 would shift the burden of proof from the employee 
to the employer to prove that the illness was caused by some 
factor other than the duties of a firefighter.
    It is important also to note that Congress has enacted 
legislation with presumptive benefits in the past. The 108th 
Congress passed the Hometown Heroes Act, and under this law, 
the public safety officers benefit is paid to families of 
firefighters who died as a result of a heart attack or a stroke 
while they are on duty.
    So, we are assuming that the death was a direct and 
proximate result of their duties.
    However, currently, if a firefighter does not succumb to a 
heart or stroke on duty, it is presumed not to be job-related.
    In conclusion, Mr. Chairman, while we believe the merits of 
H.R. 697 warrant Congressional action, we are also mindful 
that, in this tight budget environment, we must be sensitive to 
the cost of even the most compelling initiatives. Although no 
formal cost estimate has been done by the Congressional Budget 
Office, we believe the cost of implementing H.R. 697 will be 
minimal.
    Mr. Chairman, that concludes my statement, and I would like 
to thank you and the Committee for the opportunity to be here 
today, and would welcome any questions you may have.
    [The prepared statement of Mr. Johnson follows:]

     Statement of James B. Johnson, 16th District Vice President, 
       International Association of Fire Fighters, Washington, DC

    Mr. Chairman, Ranking member and members of the committee, my name 
is James Johnson, and I am the 16th District Vice-President of the 
International Association of Fire Fighters (IAFF), representing federal 
fire fighters.
    On behalf of General President Harold A. Schaitberger and the 
267,000 men and women of the IAFF it his my honor to testify before you 
today on H.R. 697, The Federal Fire Fighters Fairness Act, a bipartisan 
bill introduced by Representatives Joann Davis and Lois Capps. The bill 
would bring a much-needed benefit to the fire fighters that I represent 
in the federal sector.
Introduction
    Since the events of September 11, 2001, Americans have become 
increasingly aware of the role that fire fighters serve as our nation's 
domestic defenders. These courageous men and women protect the lives 
and property of their neighbors in communities throughout the country.
    Federal fire fighters, although not as well known as their 
counterparts in the municipal sector, play an essential role in 
protecting the vital interests of the United States. The over 15,000 
federal fire fighters face some of the most difficult and hazardous 
working conditions in the country guarding military installations, 
nuclear facilities, and VA hospitals. And their 72 hour work week is 
unparalleled. Without their dedicated service, our nation would be less 
secure.
    The job of federal fire fighters is unique in many ways. Far more 
often than other occupations within the federal sector, they are 
routinely exposed to carcinogens, infectious diseases, and other 
occupational hazards.
    Federal fire fighters respond to all of the same types of 
emergencies as their counterparts in the municipal sector including 
medical emergencies, hazardous material incidents, structural fires, 
and aircraft emergencies. But they also face unique hazards involving 
incidents at weapons depots, facilities conducting classified work and 
research, and emergencies aboard naval vessels.
    And they respond to these incidents often without adequate 
information about the dangers they may encounter. An EMS call can 
actually turn out to involve a chemical spill, and a structural fire 
can be the result of a research or ammunition test failure. Although 
fire fighters take precautions and wear protective gear, as with all 
aspects involving occupational protection, exposures happen.
    Fire fighters are exposed on an almost daily basis to stress, 
smoke, heat and various toxic substances. As a result, they are far 
more likely to contract heart disease, lung disease and cancer than 
other workers. And as fire fighters increasingly assume the role of the 
nation's leading providers of emergency medical services, they are also 
exposed to infectious diseases.
    Heart disease, lung disease, cancer, and infectious disease are now 
among the leading causes of death and disability for fire fighters, and 
numerous studies have found that these illnesses are occupational 
hazards of fire fighting.
    Under the Federal Employees' Compensation Act (FECA), compensation 
and/or retirement benefits are not provided to federal employees who 
suffer from occupational illnesses unless they can specify the 
conditions of employment to which the disease is attributed. In order 
to qualify for these benefits under current law, federal fire fighters 
must be able to pinpoint the precise incident or exposure that caused a 
disease in order for it to be determined job-related.
    As I will explain further in my testimony, this burden of proof is 
extraordinarily difficult for fire fighters to meet because they 
respond to a wide variety of emergency calls, constantly working in 
different environments under varied conditions.
    As a result, very few cases of occupational disease contracted by 
fire fighters have been deemed to be service connected.
State Laws
    In recognition of the linkage between firefighting and certain 
diseases, 40 states have enacted some sort of ``presumptive 
disability'' laws, which presume that cardiovascular diseases, certain 
cancers and infectious diseases are job-related for purposes of workers 
compensation and disability retirement unless it can be shown 
otherwise.
    For example, Mr. Chairman, in your home state of Georgia fire 
fighters are protected by a presumptive disability law that covers 
heart disease, lung disease, and certain infectious diseases.
    Many of the illnesses covered by state presumptive disability laws 
are debilitating and often fatal. They place a great strain on the fire 
fighter and his/her family. Knowing that they will not have to fight 
their state Worker's Compensation offices during trying times for them 
and their families provides a degree of security for those who place 
themselves in harm's way to protect the rest of us.
    While presumptive laws are now the norm for municipal fire 
fighters, no such protection exists for fire fighters employed by the 
federal government.
Fairness
    HR 697 was named the Federal Fire Fighters Fairness Act because the 
main impetus for the legislation is to treat federal fire fighters 
fairly. It is simply not right that federal fire fighters are denied an 
important workplace protection that is routinely provided in the 
municipal sector. This inequity is especially egregious in communities 
where federal fire departments maintain a mutual aid agreement with a 
neighboring municipality.
    In such instances, federal fire fighters work side-by-side with 
municipal fire fighters during mutual aid responses and are subject to 
the same occupational hazards as the municipal fire fighter. However, 
if two fire fighters both contract an illness due to their mutual 
exposure at an incident, the municipal fire fighter in most instances 
would be covered by workers compensation but the federal fire fighter 
would not.
    There simply is no valid justification for denying federal fire 
fighters comparable protections.
Recruitment and Retention
    In order for the federal government to adequately protect our 
nation's domestic military installations, nuclear facilities and other 
sensitive agencies, the government must offer fire fighters benefits 
that are competitive with those that are provided by municipalities. 
Often, federal fire fighters leave the federal service for work in a 
municipal department because the benefits are superior. For those same 
reasons, municipal departments also have a competitive advantage over 
the federals in the recruitment of new hires.
    Being at a competitive disadvantage to recruit and retain fire 
fighters harms the federal government in two ways. First, it makes it 
more difficult to recruit and keep the very best our profession has to 
offer. Considering the vital national security role played by the 
nation's fire fighters, it is important that the federal government is 
able to recruit and retain the elite of the firefighting world.
    Second, the federal government invests a significant amount of 
money to uniquely train federal fire fighters, and it costs taxpayer 
dollars each time a federal fire fighter leaves for the municipal 
sector. High turnover is costly and wasteful.
    In order to address these problems, the federal government must 
offer a competitive benefits package, and that includes having 
occupational illness covered by workers compensation.
Case Studies
    Admittedly, there are few examples of the Department of Labor's 
Office of Worker's Compensation (OWCP) rejecting applications for 
occupational illnesses, but that is due to the fact that fire fighters 
simply do not apply for benefits they have been told are not available 
to them.
    When a fire fighter contracts a career-ending illness, they are 
given paperwork by their local personnel office and told what benefits 
they are or are not eligible to receive. Those who are suffering from 
diseases that have been linked to fire fighting are informed that such 
illnesses are not considered duty-related for Workers Comp purposes.
    For example, Fire Fighter Leon Tukes of Warner Robins Air Force 
Base in your home state of Georgia suffered a heart attack while on 
duty. After his heart attack, Fire Fighter Tukes went to the Personnel 
Office at Warner Robins to enquire about receiving a presumptive 
disability retirement. He was told to not even bother because no claim 
has ever been granted for a heart attack. He never filed a claim and 
accepted the retirement benefits provided to people who retire for non-
work related reasons.
    Unable to work and with no protection under FECA, Fire Fighter 
Tukes had to rely on his fellow fire fighters to donate leave to him so 
he could retire with a full pension. He was lucky to be near retirement 
age; most are not when they are stricken with these occupational 
illnesses.
    Occasionally an instance occurs in which the service connection is 
so apparent that OWCP has little choice but to award benefits. But the 
absence of a presumptive disability law means that in even these cases 
the fire fighter must spend years fighting the bureaucracy to get what 
they are rightfully entitled to.
    Fire Fighter Rick LeClair provides a tragic example of this delay. 
LeClair spent his career protecting the critical naval facility in San 
Diego, California until he was diagnosed with lung cancer. Doctors 
discovered that his cancer was caused by mesothilioma, which was 
attributed to the asbestos suits that fire fighters once wore. Fire 
Fighter Leclair filed a claim with the Office of Workers' Compensation. 
Before the claim was decided fire fighter LeClair succumbed to the 
cancer that was ruled to be caused by an occupational hazard. If this 
law would have been in place for fire fighter Leclair, his illness 
would have been presumed and he would have received the benefit he died 
waiting years to receive.
    It is for fire fighters Tukes, LeClair, and many others whose names 
we don't know, that we urge passage of the Federal Fire Fighters 
Fairness Act.
Firefighter Health and Safety
    The IAFF has been actively involved in the health and safety of 
fire fighters for more than seventy years. Each year the IAFF conducts 
an annual death and injury survey with the cooperation and 
participation of various fire department administrators. This survey 
has shown that fire fighting is the most hazardous occupation in the 
United States. During the latest ten-year period (1990-2000), the Death 
and Injury Survey has found that professional fire fighters experienced 
342 traumatic-injury deaths, 502 occupational disease deaths, 343,861 
injuries and 6,632 forced retirements due to occupationally induced 
diseases or injuries.
    Occupational diseases such as heart disease and cancer constitute a 
majority of all reported fire fighter deaths.
Heart Disease
    The very nature of firefighting places extraordinary strain on 
cardiovascular systems. Fire fighters are constantly making transitions 
from the calm, peaceful environment of the firehouse to the hostility 
presented by fire. Within 15-30 seconds after the fire alarm sounds, 
research studies have found that a fire fighter's heart rate can 
increase by as much as 117 beats per minute. In addition, a fire 
fighter's heart can beat at twice its normal rate throughout the entire 
fire fighting operation. These extreme physiological stresses lead to 
severe coronary problems, which have been documented by numerous 
authorities.
    Fire fighting involves stressful and strenuous physical activity 
that is made more burdensome by the fact that the protective clothing 
and breathing apparatus a fire fighter wears adds 45 to 65 pounds. The 
working environment can also mean a transition from below freezing 
temperatures to temperatures between 100 degrees and 500 degrees 
Fahrenheit at the fire itself.
    The strain placed on the heart by this unique combination of 
factors is unlike that of any other occupation, and leads to heightened 
risk of heart disease.
Cancer
    Technology has created a distinct difference in the modern fire 
environment. Fire fighters are exposed in their work to extremely high 
concentrations of a large number of toxic and carcinogenic chemical 
compounds.
    Some of these chemicals--for example, carbon monoxide and soot 
containing polycyclic aromatic hydrocarbons--are natural products of 
combustion and have always been present at fires. However, the 
combustion of modern synthetic and plastic materials produces many 
highly toxic and carcinogenic compounds that were not found in fires 
even three or four decades ago. Exposures today commonly include 
benzene, formaldehyde, polycyclic aromatic hydrocarbons (PAH), asbestos 
and the complex mix of carcinogenic products that arise from combustion 
of synthetic and plastic materials.
    These chemical compounds are commonplace ingredients in our 
environment as components of household furniture, plastic pipes, wall 
coverings, automobiles, buses, airplanes, and coverings for electrical 
and other insulation materials.
    While the initial health effects of such exposures can be short-
term or even nonexistent, these exposures can and do result in long-
term illnesses involving the cardiovascular system, the respiratory 
system, the central nervous system and other body organs.
    Practically every emergency situation encountered by a fire fighter 
has the potential for exposure to carcinogenic agents. However, fire 
fighters can also be exposed to carcinogenic agents when the protective 
clothing they wear is exposed to high heat or burns. Fire fighters have 
even been exposed to carcinogens through the fire-extinguishing agents 
they utilize. The list of potential carcinogenic agents that fire 
fighters can be exposed to is almost as long as the list of all known 
or suspected carcinogens. Nevertheless, fire fighters constantly enter 
potential toxic atmospheres without adequate protection or knowledge of 
the environment.
    Research has clearly shown the following specific linkages 
established between cancer and chemicals encountered in fire fighting:
    <bullet>  Leukemia is caused by benzene and 1,3-butadiene.
    <bullet>  Lymphoma and multiple myeloma are caused by benzene and 
1,3-butadiene.
    <bullet>  Skin cancer is caused by soot containing PAH.
    <bullet>  Genitourinary tract cancer is caused by gasoline and PAH.
    <bullet>  Gastrointestinal cancer is caused by PCBs and dioxins.
    <bullet>  Angiosarcoma of the liver and brain cancer are caused by 
vinyl chloride.
    Leukemia, lymphoma, multiple myeloma, cancer of genitourinary 
tract, prostate cancer, gastrointestinal cancer, brain cancer and 
malignant melanoma are among the cancers that have been observed 
consistently with increased frequency in epidemiologic studies of fire 
fighters. It is likely that additional associations will be identified 
between chemicals encountered in the fire environment and cancer in 
fire fighters. Nevertheless, the available data are sufficient to 
conclude that excess risk of cancer is a distinct hazard of fire 
fighting.
Lung Disease
    In the course of their work, fire fighters are exposed to numerous 
substances that irritate the respiratory tract-ammonia, chlorine, 
formaldehyde, hydrogen sulfide and hydrogen chloride to name just a 
few. Toxic substances can cause acute (immediate) effects, chronic 
effects noted months or years afterwards, or both. The acute effects of 
inhaling smoke are familiar to every fire fighter. Some of these agents 
may not cause immediate irritation, but instead, cause damage that 
doesn't become apparent until years later when it may be difficult to 
prove cause and effect.
Infectious Diseases
    Infectious diseases have become a hazard to fire fighters too big 
to ignore. Fire fighters and emergency medical responders can be 
exposed during motor vehicle accidents in which blood and sharp 
surfaces often are present, by rescuing burn victims, and through the 
administration of emergency care. The victim may require extrication 
from a difficult-to-access accident scene, such as a motor vehicle 
accident or poorly accessible building. There may be broken glass or 
other sharp objects at the scene that are poorly visualized, and the 
lighting at the scene may be minimal. In addition, if the victim is 
exsanguinating and needs to be extricated quickly to save his life, the 
emergency provider may act in haste, with disregard for his or her own 
safety. Fire fighters are also involved in emergency medical treatment 
at the scene, including intravenous line insertion and blood drawing. 
The fire fighter almost never knows the infectious disease status of 
the victim while he or she is rendering emergency services. All of 
these factors combine to place the fire fighter at increased risk of 
contracting a blood borne contagious disease through a puncture wound, 
skin abrasion or laceration that becomes contaminated with infected 
blood from the victim.
    Every fire fighter's education now includes use of Universal 
Precautions, such as the wearing of protective gloves, safety glasses, 
and masks. But in the chaotic environment of an emergency scene, these 
precautions can and do fail. Exposures happen. A government study 
conducted during the development of the federal OSHA Blood borne 
Pathogen Standard found that 98 % of EMT's and 80% of fire fighters are 
exposed to blood borne diseases on the job.
Next Steps
    Mr. Chairman, as I have previously stated, nearly 40 states have 
some form of a presumptive disability law on the books. There is no 
such law for federal fire fighters.
    In order to qualify for a disability retirement, a fire fighter who 
suffers from an occupational illness must specify the precise exposure 
that caused their illness. As my testimony indicates those are nearly 
insurmountable odds.
    H.R. 697, The Federal Fire Fighters Fairness Act would create a 
rebuttable presumption that fire fighters who become disabled by heart 
and lung disease, certain cancers and infectious diseases contracted 
the illnesses on the job. H.R. 697 would shift the burden of proof to 
the employer to prove that the illness was caused by some factor other 
than the duties of the fire fighter.
    This does not mean that every fire fighter who contracts a disease 
named in the legislation automatically would qualify for benefits under 
FECA. For example, lung cancer is unlikely to be determined to be 
occupational if it is contracted by a fire fighter who was also a long-
term smoker. But the burden of proof would no longer be placed on the 
fire fighter to prove the cause of the disease.
Precedent
    Although FECA currently does not provide presumptive disability 
benefits, Congress has enacted such presumptions in other benefit 
programs. Peace Corps volunteers, military veterans, and public safety 
officers who die in the line of duty are all covered by presumptive 
laws.
    Service-connected disability is provided to Vietnam veterans whose 
cancers are presumed to be caused by herbicide exposure. Like fire 
fighters, Vietnam Veterans found it extremely difficult to pinpoint 
precise exposures, and as a result, thousand of veterans were denied a 
benefit to which they were entitled. After years of lobbying by veteran 
groups, Congress responded by enacting a law that established a 
presumption of service-connection for certain diseases.
    More recently, the Congress passed and President Bush signed into 
law the Hometown Heroes Act (PL 108-182). Under the new law, Public 
Safety Officer Benefit (PSOB) will be paid to the families of fire 
fighters and police officers who die as a result of heart attack or 
stroke suffered within twenty-four hours of responding to an emergency 
call or participating in a training exercise involving ``unusual 
physical exertion.'' It is now presumed that the death was ``a direct 
and proximate result'' of the emergency response.
Cost
    While we believe that the merits of the Federal Fire Fighters 
Fairness Act warrant congressional action, we are mindful that in this 
tight budget environment we must be sensitive to the cost of even the 
most compelling initiatives. Although no formal cost estimate has been 
done by the Congressional Budget Office, we believe the cost of 
implementing H.R. 697 will be minimal.
    The number of federal fire fighters is relatively small compared 
with other occupations in the federal sector, and the vast majority do 
not retire due to an illness. Based on the experience of states with 
similar presumptive disability laws, as few as 15-20 people are likely 
to qualify for the benefit each year.
    Moreover, because fire fighters are generally on the lower end of 
the GS pay scale, benefits based on their salary would not have a 
significant impact on FECA's balance sheet.
    In short, an important protection can be provided to the nation's 
federal fire fighters at little expense to the federal treasury.
    In conclusion, Mr. Chairman, I would like to thank you and the 
Committee for holding this hearing today. I look forward to working 
with the committee to see this legislation move forward.
                                 ______
                                 
    Mr. Norwood. Thank you very much, Mr. Johnson, and now, Mr. 
Shufro, you are recognized for 5 minutes.

   STATEMENT OF JOEL A. SHUFRO, EXECUTIVE DIRECTOR, NEW YORK 
  COMMITTEE FOR OCCUPATIONAL SAFETY AND HEALTH (NYCOSH), NEW 
                            YORK, NY

    Mr. Shufro. Thank you very much. I appreciate the 
opportunity to testify.
    The New York Committee for Occupational Safety and Health 
is a nonprofit educational organization composed of 200 local 
unions and 300 individual members dedicated to promoting every 
worker's right to a safe and healthful work place.
    I am here to support H.R. 697, which creates the legal 
presumption that certain diseases are considered work-related 
when they cause the disability or death of Federal fire 
protection employees.
    Many states, including New York, have created such 
presumptions as a reasonable and rational method of providing 
those workers who are routinely exposed to hazardous substances 
and conditions at work and who are disabled as a result with 
medical and financial benefits.
    This year, the New York State legislature, in its current 
session, passed legislation establishing presumptions that 
disability is work-related among certain public employees who 
were exposed to hazardous conditions in connection with the 
World Trade Center tragedy of September 11, 2001. The bill, 
which provides disability retirement, is currently sitting on 
Governor Pataki's desk, and we are hoping that he will sign the 
bill this year. The need, however, goes far beyond public 
sector workers and disability retirements.
    It is estimated that 30 to 35 thousand workers worked 
directly on the pile at Ground Zero. Countless others worked to 
clean up the buildings of lower Manhattan and Brooklyn.
    Six thousand of the 12,000 workers who have been seen at 
the World Trade Center worker and volunteer medical screening 
program at Mt. Sinai Medical Center have respiratory symptoms 
that require medical treatment.
    For some, symptoms have abated. Others have symptoms that 
have reemerged after abating, and still others have symptoms 
that are appearing only now, nearly 4 years after exposure.
    Similar numbers of workers have been diagnosed with mental 
problems requiring psychological counseling, and of course, it 
is too early to know how many workers will develop diseases 
such as cancers with latency periods as long as 40 years.
    To receive medical treatment, workers and volunteers must 
apply for workers compensation.
    In the aftermath of 9/11, Congress allocated $175 million 
over 4 years to assist New York State's workers compensation 
board.
    In his latest budget proposal, the President eliminates 
$125 million which has not yet been spent. If the funding is 
not restored, there will be no source of funds to pay future 
claims of volunteers and uninsured workers who have been made 
ill as a result of their exposure at Ground Zero, as well as 
the ongoing claims of those workers who have already been able 
to establish them.
    This is extremely unfortunate.
    While we do not know how many workers are eligible for 
benefits, we do know that there are many impediments for 
workers to file and that large numbers of individuals who 
should receive medical attention and possibly wage replacement 
are not receiving them.
    For example, many immigrant workers and volunteers who 
participated in the rescue efforts and cleanup of office 
buildings in lower Manhattan were never informed of their right 
to access the New York State workers compensation program.
    My organization, through funding from the Red Cross and the 
United Church of Christ World Services, has been reaching out 
to the immigrant organizations and has begun to identify large 
numbers of workers who are sick and have not received any 
benefits.
    In addition, we have a case known as medical-only cases, 
claims where workers need medical treatment but have not lost 
time at work, and they cannot get legal representation. Lawyers 
do not get paid in this process, and so, our system, which is 
very arcane and complicated, especially for immigrant workers, 
to navigate without a lawyer--many of the workers just drop 
out.
    Many workers' compensation claims have been contested and 
remain unresolved.
    Many workers who participated in the rescue and clean-up at 
the World Trade Center site, who have experienced the onset of 
respiratory illness and other diseases, have not been able to 
establish claims, thereby preventing them from receiving timely 
medical treatment and medication, as well as receiving wage 
replacement benefits. This has meant real hardship for the many 
who heroically attempted to rescue those who were buried in the 
rubble of the collapse or who worked in the vicinity of Ground 
Zero.
    There are many reasons workers have not received benefits. 
In part, the difficulty has arisen because there are no 
presumptions in the law.
    In the remaining time, I would just like to say that we 
urge that the Congress restore the funding for workers' 
compensation payments to workers who were made ill in New York 
City.
    [The prepared statement of Mr. Shufro follows:]

Statement of Joel A. Shufro, Executive Director, New York Committee for 
              Occupational Safety and Health, New York, NY

    My name is Joel Shufro. I am the executive director of the New York 
Committee for Occupational Safety and Health, a non-profit educational 
organization. We are a coalition of 200 local unions and 300 individual 
members dedicated to promoting every worker's right to a safe and 
healthful workplace. We have a twenty-six year history of providing 
safety and health training and technical assistance to working people, 
community organizations and employers in the New York Metropolitan 
area.
    I am here to support H.R. 697, which creates the legal presumption 
that certain diseases are considered work-related when they cause the 
disability or death of federal fire protection employees. Many states, 
including New York, have created such presumptions to as a reasonable 
and rational method of provide those engaged in hazardous activities 
with medical and financial benefits to workers who are routinely 
exposed to hazardous substances and conditions at work and who are 
disabled as a result.
    This year the New York state legislature, in its current session 
passed legislation establishing the presumption that disability is 
work-related among certain public employees who were exposed to 
hazardous materials presumptive accidental disability in connection 
with the World Trade Center tragedy of September 11, 2001. The 
legislature passed the same bill last year and the year before that, 
but the first two times it was vetoed by Governor Pataki. In so doing, 
the legislature recognized that public employees including police, 
fire, correction and sanitation rendered rescue, recovery and clean up 
at and around the World Trade Center site and were exposed to numerous 
hazards which may have, and may, impact their health in years to come.
    The bill is currently sitting on Governor Pataki's desk. We are 
hoping that he will not veto the bill for the third time.
    The need, however, goes far beyond public sector workers and 
disability retirements. It is estimated that 30-45,000 workers worked 
directly on the pile at Ground Zero; countless others worked to clean 
up the buildings of Lower Manhattan. Still others returned to work and 
live in buildings which were either not or inadequately cleaned up and 
still contaminated after the EPA and OSHA assured the public that the 
air was safe. The consequence has been that workers and community 
residents are sick--and in large numbers.
    Six thousand of the 12,000 workers who have been seen at the World 
Trade Center Worker and Volunteer Medical Screening Program at Mt. 
Sinai Medical Center have respiratory symptoms that require medical 
treatment. For some, symptoms have abated; others have symptoms that 
re-emerge after abating and still others have symptoms that are 
appearing only now, nearly four years after exposure. Similar numbers 
of workers have been diagnosed with mental problems requiring 
psychological counseling. Many of the workers will never be able to 
work again; others will not be able to pursue their chosen careers. 
And, it is, of course, too early to know whether and how many workers 
will develop diseases such as cancers with latency periods as long as 
40 years.
    To receive medical treatment workers and volunteers must apply for 
workers' compensation. In the aftermath of 9/11, Congress allocated a 
total of $175 million over four years to the New York State Workers' 
Compensation Board. Of the money allocated, $125 million was earmarked 
for the processing of claims; $50 million to reimburse the state 
Uninsured Employers Fund for benefits paid to volunteers and to 
employees of companies that did not have workers' compensation 
insurance.
    According to a recent GAO report (GAO-04-1013T) entitled 
``September 11, Federal Assistance for New York Workers' Compensation 
Costs,'' the New York State Workers' Compensation Board has spent $50 
million of the $175 million that has been provided by the federal 
government. In his latest budge proposal, the President calls for 
taking back the remaining $125 million. If the president's proposal is 
agreed to there will be no source of funds to pay future claims of 
volunteers and uninsured workers who have been made ill as a result of 
exposure to toxic substances during the September 11th cleanup.
    This is extremely unfortunate. While we do not know how many 
workers are eligible for benefits, we do know that there are many 
impediments for workers to file and that large numbers of individuals 
who should receive medical attention and possibly wage replacement are 
not receiving them.
    For example, many immigrant workers and volunteers who participated 
in the rescue efforts and cleanup of office buildings in Lower 
Manhattan were never informed of their right to access the New York 
State Workers' Compensation System. NYCOSH has recently received grants 
from the Red Cross and the United Church of Christ World Services to 
inform organizations that are active in the immigrant community about 
the eligibility of workers who have developed occupational disease 
related to work at the World Trade Center.
    In addition, many workers have what are known as ``medical-only 
cases''--claims where the worker needs medical treatment but has not 
lost time at work. In these cases, lawyers in New York State most 
lawyers are unwilling to take medical-only cases, because there is no 
mechanism to pay lawyers for work on such cases. The Workers' 
Compensation System in New York State is too complicated and arcane for 
any worker, but especially an immigrant worker, to navigate workers' 
compensation system without a lawyer. As a result, far too many workers 
who would be entitled to medical treatment do not pursue their cases.
    Many workers' compensation claims have been contested and remain 
unresolved. Despite a request from the then chair of the New York State 
Workers' Compensation Board, Robert Snashall, that claims for workers' 
compensation arising out of the World Trade Center tragedy be 
expedited, many workers who participated in the rescue and cleanup at 
the World Trade Center site and have experienced the onset of 
respiratory illness and other diseases have been unable to establish 
claims thereby preventing them from receiving timely medical treatment 
and medication as well as receiving wage replacement benefits. This has 
meant real hardship for many who heroically attempted to rescue those 
who were buried in the rubble of the collapse or who worked in the 
vicinity of Ground Zero cleaning up the toxic dust which covered Lower 
Manhattan.
    There are many reasons workers have not received benefits. In part, 
the difficulty has arisen because there are no presumptions in our 
workers' compensation law that associate the adverse health effects 
that workers at the Trade Center experienced with their exposure to the 
toxic substances. Given the witches brew of toxic substances and 
chemicals to which workers were exposed, it is virtually impossible for 
a worker to prove the onset of symptoms was caused by any given 
chemical or combination of chemicals. However, there is evidence that 
insurance companies are contesting claims of 9/11 victims, according to 
some sources, at a rate ten times greater than that of the normal 
population of injured workers. This has led programs that have provided 
needed medicines to injured workers while their cases are being 
adjudicated, to stop providing assistance until workers claims have 
been established, leaving workers without access to prescribed 
medications while they await a determination.
    Consequently, we are here to urge Congress should restore funding 
to cover the future workers' compensation costs associated with 
illnesses arising out of the rescue, cleanup of Ground Zero and return 
to workers to workplaces throughout Lower Manhattan. This is 
particularly important since we have do not know whether additional 
workers will develop illnesses in years to come nor do we know how long 
the symptoms workers are currently experiencing will persist. The 
funding should be used to:
    1)  create a medical trust fund so workers can get needed medical 
treatment while they are waiting for their claims to be established;
    2)  finance a outreach campaign to special populations such as 
immigrant workers and volunteers to inform them of their rights to 
benefits under New York State's Workers' Compensation Law.
    3)  fund Medical Centers of Excellence which would develop 
expertise in dealing with the complex, multiple medical issues which 
workers who worked at the World Trade Center site are experiencing.
    As our state legislature noted in passing its bill for disability 
retirements for public-sector workers who participated in the rescue 
and clean up at the World Trade Center, ``It is beyond question that 
the State must recognize the services that these individuals provided 
not only to the victims and their families, but to all citizens of the 
City and the State of New York and the United States of America.'' We 
believe that all workers who participated in the rescue and clean up or 
have become ill as a result of exposure to the toxic substances from 
the collapse of the World Trade Center should receive appropriate 
benefits and that the funding should be restored to the President's 
budget.
                                 ______
                                 
    Mr. Norwood. Thank you, Mr. Shufro.
    I recognize Mr. Kline for 5 minutes.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    I want to try to get a better handle in my own mind on the 
scope of the problem in terms of numbers, and I know, Mr. 
Johnson, you mentioned the number of Federal firefighters. 
Could you give that to us again and tell us what percentage of 
that that your union represents?
    Mr. Johnson. Overall, there are approximately--depending on 
at which time you actually work, because of the hiring 
processes, between--approximately 15,000 Federal firefighters.
    That includes overseas sites, Guam, Puerto Rico, and 
throughout the continental United States.
    A portion of those Federal firefighters are also--are 
military, however.
    My understanding is there's about 4,000 military 
firefighters between the different agencies, and then the 
remainder are civilians.
    Mr. Kline. How many of those are in the union?
    Mr. Johnson. The IFF represents approximately 4,000 Federal 
firefighters.
    There are several other unions that represent a number of 
firefighters, also.
    Mr. Kline. OK. Thank you very much.
    Continuing on the--getting a handle on the scope of the 
problem, the--looking at my notes here, the FECA is set up as a 
non-adversarial program, and according to my notes here, the 
Department of Labor has told us that approximately 65 percent 
of all claims for occupational diseases are ultimately 
approved.
    Is the issue with firefighters out of proportion with that, 
or is there a higher number approved or disapproved? Do you 
know?
    Mr. Johnson. We feel that there are a higher number 
disapproved.
    As an example, I will use hepatitis exposures, which Jo Ann 
Davis mentioned.
    The problem that we're seeing specifically with those type 
of exposures, infectious diseases, is the employees are being 
told that unless they can specifically point out the patient 
that they acquired the disease from, they are not going to be 
covered, their claims are denied, and basically--it comes down 
to basically a blood test issue, and OWCP is looking for 
something that they can actually sink their teeth into and say, 
OK, you acquired this infectious disease from this person, and 
it's nearly impossible for a firefighter to be able to pin that 
down, because a firefighter may go on 25 or 30 calls a month, 
medical calls, and--and obviously we do not know who is 
carrying those diseases when they respond.
    Mr. Kline. OK.
    One final question, then I will yield back, but along the 
same lines as trying to get a feel for the difference between 
the firefighters population and the general population, 
obviously in the general population, people die from cancer and 
heart disease and so forth. On an age-equal basis, could you 
give me a sense of the percentage or number of deaths from 
heart disease, for example, for firefighters versus the general 
population, say, for 45-year-olds?
    Mr. Johnson. I believe we have that data in the full 
testimony that we submitted, and I cannot recall it off the top 
of my head, but it is in the report that we submitted. Overall, 
from my experience working in the Federal sector for 27 years, 
there is, I believe, a higher rate of heart attack and strokes 
specifically with Federal firefighters because of the exposures 
and the stress in the job. There are also--I've been actually 
witness to several instances with employees I have worked with 
where they have tried to file claims through OWCP related to 
these incidences, and they have been denied.
    Mr. Kline. I see, and those numbers are in the testimony?
    Mr. Johnson. Yes.
    Mr. Kline. OK.
    Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Norwood. The gentleman yields back.
    Mr. Bishop, you are recognized for questioning for 5 
minutes.
    Mr. Bishop. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    I have a written statement, and I would ask unanimous 
consent that it be inserted into the record.
    Thank you, Mr. Chairman.
    First, let me start by commending Representatives Davis and 
Capps for filing this legislation.
    I think it is very good and very important legislation. I 
am proud to be a cosponsor of it, and I hope that we can see 
that this legislation becomes law.
    Mr. Johnson, several states already have the presumption of 
disability, and my question is, what experiences can you cite 
for us that would help inform the Federal Government with 
respect to how that presumption has worked? For example, how 
often is the presumption challenged? How often is that 
challenge successful?
    Mr. Johnson. From the data that we reviewed involving the 
separate states that have presumptive-type disability for 
firefighters, we actually find that there are relatively few 
firefighters that actually apply for disability under the 
presumption.
    So, I do not think the numbers are really that great for us 
to actually look at.
    Most of the instances that we see are related to heart 
attack and stroke issues, and I think a lot of that was 
channeled into the Public Safety Officers Death Benefit, which 
was a lot of the impetus behind that.
    Mr. Bishop. If we are successful in passing this law, do 
you have any sense of what its impact would be on the ability 
to both recruit or retain Federal firefighters? Is this 
something that would be attractive?
    Mr. Johnson. It would definitely be a benefit. As we see 
right now, we have a lot of problems in the Federal sector as 
far as Federal firefighters currently, as far as recruiting new 
hires and retaining those individuals throughout their career. 
Obviously, when the cities are offering better pay and better 
benefits, better compensation, and better health care and this 
presumptive disability that most of them offer, it becomes a 
challenge for the Federal sector to recruit and retain 
employees through an entire career. We do experience, as I have 
seen, employees coming into the system, gaining experience, and 
then seeing an opportunity to move to the municipal sector, and 
they definitely will take that road if they get the 
opportunity. So, improving the benefits within the Federal 
sector, I think, would be a great help.
    Mr. Bishop. One more question for Mr. Shufro. You cited 
that at least $125 million that is proposed to be cut from 
workers' compensation claims. Can you walk us through the human 
implications of that if we are unsuccessful in having that 
money restored? How many people are we talking about? What 
types of disabilities would go uncompensated?
    Mr. Shufro. Well, workers who worked on the pile are 
suffering from respiratory problems, many of whom are no longer 
able to work at all, many of whom go in and out of experiencing 
symptoms.
    We have large numbers of workers who worked on the pile who 
currently are not able to work.
    To eliminate this funding will mean that workers who are 
currently collecting will not be able to collect, and in New 
York, the maximum benefit level is the lowest of any state in 
the country, $400 a week, and--but more importantly--and I 
guess as importantly, I would say--workers who will become 
ill--there will be no funding for them, and especially for 
those people who are--were volunteered to work on the pile, for 
whom our workers compensation system has no provision. So, this 
will mean very real hardship for workers.
    It is hardship enough to live on $400 a week, let alone if 
there is no funding at all.
    Mr. Bishop. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Norwood. Thank you very much. The gentleman yields 
back.
    Dr. Price of Georgia, you are recognized for 5 minutes for 
questioning.
    Dr. Price. Thank you, Mr. Chairman.
    I, too, want to thank you all for coming and giving your 
testimony today, and just simply want to echo what others have 
said, and that is that we certainly, all of us, appreciate the 
work that firefighters do, our Federal firefighters, and want 
to recognize that and recognize that they are true heroes on 
the front lines.
    As a physician, I know that firefighters are oftentimes the 
first folks there on medical tragedies and crises when, in 
fact, there is no fire around. They get involved in many 
medical emergencies.
    So, I appreciate the work that they do.
    I would like to ask a couple specific questions. I am 
interested in the list in the bill of diseases, and understand 
through your statement, Mr. Johnson, about some of the 
correlation of exposure to certain chemicals and the like.
    How did you all come up with this list?
    Mr. Johnson. The data that is included in the report is 
obviously the result of years and years of research and 
statistical studies that the IFF and medical professionals have 
developed over a period of time. The IFF itself conducts annual 
surveys regarding deaths and injury for firefighters, and we 
tried to delve in detail into what the causes of injuries in 
firefighters are, and based on that data, we maintain a 
reporting system that we can extract that data from and come up 
with the diseases and specific illnesses that are affecting 
firefighters.
    Dr. Price. That gets to, I think, the crux of the issue 
that I think Mr. Kline tried to touch on, and that is whether 
the actuarial data will give any difference--show any 
difference between firefighters and the general public, and you 
mentioned that the numbers were in your testimony, and I may 
have missed it, but I did not see it.
    Mr. Johnson. I will check to see. If it is not, then we 
will make sure that that is provided to you.
    Dr. Price. I think that would be of great help to all 
Members of the Committee to see that.
    I also wanted to just point out one item in your--and ask 
you to comment on it, one item in your--in your written 
testimony, Mr. Johnson. That is in the area of cancer, and it 
lists the exposure and the--and how certain leukemias and 
lymphomas and skin cancers can be a result of certain exposure, 
but the final line in this paragraph here is that, 
``Nevertheless, the available data are sufficient to conclude 
that the excess risk of cancer is a distinct hazard of 
firefighting,'' and that is the kind of data that I think we 
are interested in, and I do not see that here.
    Finally, I would like to have each of you comment on the 
cost.
    Your summary says that this would probably affect 15 to 20 
people a year.
    So, I am curious about that, given the scope of what you 
all seem to say today is much larger than that, but your 
written testimony is 15 to 20 a year.
    So, would you comment on the cost--I know CBO has not 
scored it, but what you all believe is the cost?
    Mr. Johnson. Just briefly to try to summarize that, I think 
what we were looking at is what we actually see from the states 
currently that have this type of presumption, and we tried to 
look at how many claims are actually filed and go through the 
system successfully, because it is still important to remember 
that, even in the states that have a presumptive disability, 
there is still the ability on the states' part, or the 
employer, to controvert that claim. So, it is not a given that 
just because the presumption is there initially that the 
employee is going to receive the benefit permanently.
    So, we looked at those numbers, and based off those numbers 
from the states, we tried to equate what we thought is a best 
estimate.
    Dr. Price. Have you got a guess?
    Mr. Johnson. Pardon me?
    Dr. Price. Do you have a guess?
    Mr. Johnson. Within the Federal sector?
    Dr. Price. Yes.
    Mr. Johnson. My best guess would probably be 30 to 40 
employees a year.
    We really do not see that many----
    Dr. Price. In a line item per----
    Mr. Johnson. Well, it is also important to remember that 
this is broken down into different categories.
    Some employees may acquire a disease that only requires two 
or 3 months of treatment and they are back on the job, and that 
is what we see the majority of the time, are limited illnesses 
to where the employee is off for a short duration.
    Occasionally there will be--obviously there is occasions 
when an employee's illness requires a disability retirement.
    Dr. Price. If I may, Mr. Chair, do Federal firefighters 
have access to any other disability that they can purchase on 
their own for those kinds of instances?
    Mr. Johnson. There are private avenues that--obviously, 
they could pursue private disability-type insurance or 
something of that nature.
    The only other compensation that they can receive is 
directly through OWCP.
    Dr. Price. Thank you, Mr. Chairman.
    Mr. Norwood. Thank you very much. The gentleman's time is 
expired.
    Ms. Woolsey, you are now recognized for 5 minutes for 
questioning.
    Ms. Woolsey. Thank you, Mr. Chairman, and this is a great 
bipartisan bill. It is good to be working on something like 
this.
    I was a city council member in Petaluma, California, for 8 
years, and the mayor used to say, oh, do not even ask Woolsey 
about her vote on the--for our local firemen, because she is 
always going to say yes, because you are absolutely my heroes, 
and he is right, I always did say yes, and the same thing goes 
here.
    So, I do not understand why we have left the firefighters 
out of this disability coverage, and if you have some--you 
know, if you want to tell us why you think that happened, that 
is fine, that and I would like you both to look at both of 
these ideas.
    You know, your list of dangerous chemicals and all that, 
which is important to have, but we are finding that our world 
changes so quickly, and we manufacture new products, and we do 
not even have any idea what is in the product, like in our 
carpeting, where you go--you know, when it starts burning, and 
then our furniture, and you are in there saving people, and the 
furniture is setting off gases and things. Whoever knew that 
that is what we would be up against?
    I hope, in your lists, that it is not all inclusive. You 
have got to leave room for what is coming up next, because you 
know, we sometimes react backwards and get rid of things that 
are toxic, but we are always adding more. So, please--OK.
    Mr. Johnson. I think that is also important to remember.
    The list is as concise as it can be at this point in time, 
because it basically covers those incidences or those diseases 
that we see affecting firefighters the majority of the time.
    There are always unknowns out there that we do not know 
about, and they will continue, and the firefighters respond to 
incidences, especially on Federal installations, and I think 
that is important to point out, because you clued in on some of 
the hazards that are out there that we know about. The Federal 
firefighters on some of these Federal installations get 
involved in things that they have no idea what it is, and in 
some cases, they will not be told what it is, because it is 
classified, and I have personally been in incidences that 
involve classified issues and materials, and it is really an 
unknown, and it is an unknown that you will never get any 
information on, and that is, you know, important to note.
    Ms. Woolsey. Joel, do you want to respond?
    Mr. Shufro. No.
    Ms. Woolsey. OK.
    You know, in private--as long as I have a couple of seconds 
left, in private industry--I was a human resources 
professional, and we have our protocols in manufacturing. We 
knew what--our local firefighters knew if they came into our 
plant--it was an electronics company--and there was a fire, 
which we never had one, but if there was, they would know what 
they were looking for. You do not have that, do you, in Federal 
buildings.
    Mr. Johnson. Most of the Federal installations have 
inspection procedures and parameters, and inspections are 
conducted.
    So, in most of your administrative-type buildings, the 
firefighters are well aware of what are in those buildings, the 
office-type buildings and things of that nature. When you get 
into the facilities that are involved in research and depot 
work and things of that nature, there are a lot of instances 
where we are prohibited from actually even touring the building 
or having any idea whatsoever what is in there.
    So, when you show up, if there is an incident on the scene, 
you really are at peril, because you have no idea whatsoever 
what you're getting into or what is in the building or what is 
involved.
    Ms. Woolsey. Well, we ought not to be treating you as our 
stepchildren because you are Federal, and I think this bill is 
a step in the right direction, Mr. Chairman.
    Mr. Norwood. The gentlelady's time is expired.
    Mrs. Drake, you are recognize for 5 minutes for 
questioning.
    Mrs. Drake. Thank you, Mr. Chairman.
    First of all, I would like to thank both of you for being 
here.
    I think this is an important discussion, and we certainly 
are very grateful for the work of our firefighters.
    I have many friends who are firefighters, and I did serve 
in the Virginia legislature when we passed what we called the 
heart-lung bill to deal with what you have just mentioned about 
heart and lung diseases, and in Virginia, we have a much more 
limited list of cancers that are covered with a presumption. We 
cover no infectious diseases, and a big part of my concern is 
how we determine where they actually got exposed to that 
disease.
    I have family members who have died of meningitis. I have 
family members who have had hepatitis that had nothing to do 
with any occupation at all. What I wonder is, when you treat 
someone who might have a disease--hepatitis, HIV, any of the 
diseases--is there any reporting system back to you that you 
would know you had had that exposure, or is that allowed to 
take place?
    Mr. Johnson. Well, the first step is that you would have to 
be aware that the patient you were treating was infected.
    In some instances, the patient may state to the responder 
that they are carrying an illness or a disease such as 
hepatitis or something of that nature. In most cases, they do 
not state that, or they may not even be aware themselves.
    Mrs. Drake. I mean from the medical facility that you are 
transporting them to, is there a reporting back to you that 
there may have been an exposure?
    Mr. Johnson. Normally not. Because of patient privacy 
issues, normally the firefighters themselves will not get any 
type of notification back from a medical facility that a 
patient was or was not carrying an infectious disease.
    Mrs. Drake. I mean I think you can understand the concern 
that we may giving someone a presumption that, by their own 
particular lifestyle, has caused themselves to be exposed to 
certain diseases, and maybe that is an avenue we need to look 
at for these infectious diseases, is some sort of reporting 
requirement.
    Mr. Johnson. I would say that is a possibility. I think 
from my position, I think because of the nature of the job and 
the work that the firefighters are doing, that at the very 
least they deserve the benefit of the doubt.
    Mrs. Drake. OK. I would like to thank you. I know we have 
to go vote.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Norwood. Thank you. The gentlelady yields back.
    Mr. Owens, you are now recognized.
    Mr. Owens. That last questions--have any patterns been 
established showing that firefighters do come down with an 
appreciable number of infectious diseases, any kind of research 
done to document that, more so than other occupations, you have 
a pattern where large numbers of firefighters have some of 
these infectious diseases?
    Mr. Johnson. Yes, we do.
    Mr. Owens. Documented?
    Mr. Johnson. Yes.
    Mr. Owens. Mr. Shufro, thank you again for being here, 
Joel. The Mount Sinai Medical Center study was financed by the 
Federal Government, right?
    Mr. Shufro. Yes, that is correct. It financed screening but 
not medical treatment. All the workers who are going through 
the program were screened, but they rely on workers' 
compensation for treatment. There is no treatment funded by the 
Federal Government.
    Mr. Owens. You say 6,000 of 12,000 who were screened were 
found to have problems related to 9/11.
    Mr. Shufro. That is correct.
    Mr. Owens. That is 50 percent, a pretty high rate.
    Mr. Shufro. It is a very high rate.
    Mr. Owens. Then the old moribund inefficient workers' 
compensation board was given the money, Federal money, also, 
right, to deal with the problems of individual workers, 
correct?
    Mr. Shufro. The workers' compensation board is giving Mount 
Sinai money?
    Mr. Owens. No.
    Mr. Shufro. I am sorry.
    Mr. Owens. The Federal Government gave $175 million, and 
part of that went to the New York State workers' compensation 
board.
    Mr. Shufro. Yes, that is correct. The Federal Government--
--
    Mr. Owens. That is the money that the President, the 
administration is seeking to take back, is money that that 
workers' compensation board did not spend, correct?
    Mr. Shufro. That is correct.
    Mr. Owens. So, we are penalizing future workers because of 
the lack of efficiency of that board. I mean they have a 
reputation for being slow, and they have a mind-set of sort of 
suspecting workers and safeguarding employers, and all that 
went into play, I am sure, and so, you have unspent $120 
million.
    Mr. Shufro. Unspent $120 million. Some of it I would not 
lay totally at the foot of the board. I think that the board 
worked to try and deal with many cases that came in front of 
it.
    The Chairman of the workers' compensation board at that 
time, Robert Snashall, put out a statement urging that the 
insurance carriers expedite all the cases, but really, what has 
happened has been that the carriers have treated this as 
business as usual and contested an extremely high rate of--high 
number of the cases.
    In fact, one of the companies, called IWP, has been 
providing free medicine to workers while their cases have been 
adjudicated in front of the board, because workers were not 
entitled to medication until their cases were established.
    That company has just written a letter deciding not to 
provide anymore medicine, because the--it has not been--they 
have found that the cases that are being contested are 
contested at a rate 10 times higher than the normal rate of 
contest for other workers.
    So, it may not be the board's fault here but the insurance 
companies' fault.
    Mr. Owens. Are we getting any help from OSHA and EPA in 
terms of scientific technical assistance? That 9/11 situation 
produced something that never existed before, ashes which 
consist of glass, lead, metal. All kinds of things were in that 
toxic brew that the workers were breathing. Are we getting any 
kind of help to pinpoint the fact that, you know, this is an 
ongoing mystery, they are still trying to sort it out, and not 
enough time has passed for us to be dismissing workers as 
having no relationship between what happened.
    Mr. Shufro. The EPA is yet to finalize a sampling program 
for--to determine the extent and scope of contamination of 
lower Manhattan. That battle is still going on, and they put 
forth one plan which was found totally inadequate, and now they 
have proposed a second, which members of the community and many 
of the unions representing workers in lower Manhattan have 
criticized, also.
    So, we are still not at a point where the dust--the toxic 
nature of that dust has been characterized, and so, we do not 
know the exposures of all that people were subjected to.
    Mr. Owens. Thank you.
    Mr. Norwood. Well, I think everybody has asked questions 
but the Chairman.
    I would like to ask a few and then put a number of them in 
writing.
    Mr. Johnson, you mentioned that 40 states, which I find 
very interesting, have enacted presumptive disability laws.
    Can you provide the Subcommittee with a list of those 
states?
    Mr. Johnson. Absolutely, yes.
    [The information referred to appears on page 35 of this 
document.]
    Mr. Norwood. Can you clarify for me whether these 
presumptive disability laws have been added to the various 
state workers' compensation systems, or are these presumptive 
disability laws that is part of a separate disability and 
retirement program for firefighters, or are there states out 
there, for example, that have multi-purpose broad disability 
retirement programs that are specific to firefighters?
    Mr. Johnson. My understanding is that it varies, that some 
states have included the presumptive issue for firefighters 
into their current programs and that there are also states that 
have created a separate program just for public safety or 
firefighters.
    So, there is both.
    Mr. Norwood. So, like in so many other things, states do 
things separately.
    I guess that would--the presumptive disability provisions 
would vary, you know, the types of illnesses or disease.
    I guess that would vary state by state, too?
    Mr. Johnson. It is my understanding, yes, it does.
    Mr. Norwood. Well, one more little question about that.
    These disability--presumptive disability laws have been 
added to various state workers' compensation systems, or are 
these presumptive disability laws part of a separate 
disability?
    You are telling me that all the states do this differently 
in so many different ways.
    Mr. Johnson. There are differences out there, yes. I think 
the norm is for them to be included in the current programs, 
but there--there are also states that have created a separate 
program just for firefighters that covers just workman's comp 
for firefighter issues.
    Mr. Norwood. I presume that information or, certainly, we 
could get that information.
    Mr. Johnson. We can get that information, yes, sir.
    Mr. Norwood. Yes. We would love to take a really good look 
at that.
    I thank both of you for your time and your valuable 
testimony, and we will dismiss you as a panel, and I will ask 
that the second panel of witnesses come forward and take your 
seats at the table.
    Mr. Johnson. Thank you.
    Mr. Norwood. Thank you very much.
    The second panel will address H.R. 2561, the Improving 
Access to Workers' Compensation for Injured Federal Workers 
Act.
    Our first witness today will be Professor William Kohlhepp, 
associate director of the physician assistant program at 
Quinnipiac University in Hamden, Connecticut. Professor 
Kohlhepp is testifying on behalf of the American Academy of 
Physician Assistants.
    Our final witness today is Dr. Jan Towers. Dr. Towers is 
the director of health policy at the American Academy of Nurse 
Practitioners, located right here in Washington, D.C.
    I would like for you both to know we truly appreciate you 
taking the time and coming to help teach us something.
    With that, Mr. Kohlhepp, I will recognize you for 5 
minutes.

    STATEMENT OF WILLIAM C. KOHLHEPP, MHA, PA-C, ASSISTANT 
PROFESSOR AND ASSOCIATE DIRECTOR, PHYSICIAN ASSISTANT PROGRAM, 
               QUINNIPIAC UNIVERSITY, HAMDEN, CT

    Mr. Kohlhepp. Good morning. Thank you, Chairman Norwood, 
for the opportunity to present testimony this morning on behalf 
of the American Academy of Physician Assistants.
    I am here to discuss the need to update the Federal 
Employees' Compensation Act to allow PAs to diagnose and treat 
Federal workers who are injured on the job.
    I request that my written statement be included in the 
hearing record.
    Mr. Norwood. So ordered.
    Mr. Kohlhepp. My name is Bill Kohlhepp, as you said, and I 
have been a physician assistant for 25 years. As you said, I am 
the associate director of the Quinnipiac University physician 
assistant program.
    For the past 15 years, I have continued my clinical 
practice at Saint Raphael's Occupational Health Plus in New 
Haven, Connecticut.
    I am a past president of the AAPA and current chair of the 
National Commission on Certification of PAs, which is the 
certifying body for PAs.
    What I would like to do this morning is to provide a brief 
overview of PA education, and I would like to share our 
perspective on why it is important to update FECA to allow PAs 
to diagnose and treat Federal employees who are injured on the 
job.
    PA programs are located at schools of medicine or health 
sciences, universities, teaching hospitals, and the armed 
services.
    All PA programs are accredited by the Accreditation Review 
Commission on Education for the Physician Assistant, an 
organization composed of representatives from national 
physician groups and PAs.
    The average PA program is 26 months and is characterized by 
a rigorous competency-based curriculum with both didactic and 
clinical components.
    The first phase of the program consists of an intensive 
classroom and laboratory study providing students with an in-
depth understanding of the medical sciences.
    The second year of PA education consists of clinical 
rotations.
    On average, PAs devote more than 50 to 55 weeks to clinical 
education.
    The overwhelming majority of PA programs offer master 
degrees.
    After graduation, PAs must pass a national certifying exam.
    PAs maintain their certification through required CME and 
re-certification by exam every 6 years.
    PAs are licensed health-care professionals who practice 
medicine, as delegated by and with the supervision of a 
physician.
    PAs are legally regulated in all states.
    Forty-eight states, the District of Columbia, and Guam 
authorize physicians to delegate prescriptive privileges to 
PAs.
    In 2004, an estimated 206 million patient visits were made 
to the 55,000 PAs in clinical practice. Approximately 250 
million medications were prescribed or recommended by those 
PAs.
    PAs always work with physicians. However, this does not 
mean that the physician is necessarily onsite, nor does it 
suggest that PAs do not make autonomous medical decisions. For 
example, PAs employed by the State Department may be--may work 
with a physician who is a continent away and available for 
consultation by telecommunication.
    It has been said that every workers' compensation case is a 
failure of prevention, and PAs as a profession have a 
particular focus in prevention. PAs' versatility, competencies, 
and interpersonal skills are well suited to the demands of 
occupational medicine.
    PAs participate in the promotion of employee health, 
including the treatment of occupational injuries and illnesses, 
preventive and pre-placement exams, health maintenance 
activities, immunization programs, Department of Transportation 
exams, workers' compensation case management follow-up, and 
health and safety education.
    What does it mean for my practice that I cannot sign FECA 
claim forms as a PA? The bottom is that, unless the physician 
signs the form, the claim is not paid.
    In letters responding to Congressional inquiries on PAs and 
FECA, the DOL's Office of Workers' Compensation has taken the 
position that claims or reports are not acceptable if they have 
been signed by a PA, because PAs are not included in the FECA's 
definition of physician.
    PAs currently jump through hoops to ensure that physicians 
sign the workers' compensation claims in order to make the 
system work for the injured employee and the practice.
    Waiting for a physician's signature is not the best use of 
the physician's time, my time, or the time of the injured 
worker, and physicians are not always available, particularly 
in rural and urban medically under-served communities where PAs 
may be the only licensed health care professionals serving the 
community or in clinics staffed by PAs that provide care during 
evenings and weekends or at other times without a physician 
present.
    We believe that it makes good sense and good public policy 
to update FECA to allow PAs to diagnose and treat Federal 
employees who are injured on the job. The current restriction 
limiting PAs' abilities to provide care to Federal workers adds 
unnecessary cost to the system, limits Federal workers' access 
to quality medical care, restricts Federal workers' choice of a 
preferred health care professional, and may result in problems 
related to continuity of care.
    There is another good reason to update FECA to allow PAs 
the ability to diagnose and treat injured workers, the shortage 
of physicians in occupational medicine. The 1,500 to 1,800 
occupational medicine physicians in practice today falls far 
below the need.
    We believe these are compelling reasons to update FECA to 
recognize PAs.
    Thank you for the opportunity to present testimony before 
the Subcommittee. I look forward to responding to your 
questions.
    [The prepared statement of Mr. Kohlhepp follows:]

 Statement of William C. Kohlhepp, MHA, PA-C, Assistant Professor and 
     Associate Director, Physician Assistant Program, Quinnipiac, 
                         University, Hamden, CT

    Good Morning. Thank you, Chairman Norwood and Representative Owens, 
for the opportunity to present testimony this morning before the 
Subcommittee on Workforce Protections. On behalf of the American 
Academy of Physician Assistants (AAPA), I also wish to thank you for 
your interest and leadership in updating the Federal Employees' 
Compensation Act (FECA) to allow PAs to diagnose and treat federal 
workers who are injured on the job.
    My name is Bill Kohlhepp. I am a graduate of the University of 
Medicine and Dentistry of New Jersey's PA Program, and I have been a 
physician assistant for the past 25 years. I hold a master's degree in 
health administration and am currently enrolled in a doctoral program 
in health science.
    I am the Associate Director of the Quinnipiac University Physician 
Assistant Program, where I am also a professor. For the past 15 years, 
I have practiced clinically on a part-time basis for Saint Raphael's 
Occupational Health Plus, which is an occupational medicine practice 
affiliated with Saint Raphael's Hospital in New Haven, Connecticut. I 
was the founding Administrative Director of the practice. I am also a 
co-author of an article on the role of PAs in occupational medicine 
that was published in the Journal of the American Academy of Physician 
Assistants.
    I am a member of the AAPA and the American Academy of Physician 
Assistants in Occupational Medicine (AAPA-OM). I am a former president 
of AAPA, as well as a former Speaker of the AAPA's House of Delegates. 
I am the current Chair of the National Commission on Certification of 
Physician Assistants (NCCPA), which is the certifying organization for 
PAs in the United States.
    On behalf of the more than 55,000 clinically practicing physician 
assistants in the United States who are represented by the American 
Academy of Physician Assistants, I am pleased to submit comments on the 
need to update the Federal Employees Compensation Act (FECA) to allow 
PAs to diagnose and treat federal workers who are injured on the job.

Overview of Physician Assistant Education
    Physician assistant programs provide students with a primary care 
education that prepares them to practice medicine with physician 
supervision. PA programs are located at schools of medicine or health 
sciences, universities, teaching hospitals, and the Armed Services. All 
PA educational programs are accredited by the Accreditation Review 
Commission on Education for the Physician Assistant, an organization 
composed of representatives from national physician groups and PAs.
    The average PA program is 26 months and is characterized by a 
rigorous, competency-based curriculum with both didactic and clinical 
components. The first phase of the program consists of intensive 
classroom and laboratory study, providing students with an in-depth 
understanding of the medical sciences. More than 400 hours in classroom 
and laboratory instruction are devoted to the basic sciences, with over 
70 hours in pharmacology, more than 149 hours in behavioral sciences, 
and more than 535 hours of clinical medicine.
    The second year of PA education consists of clinical rotations. On 
average, students devote more than 2,000 hours or 50-55 weeks to 
clinical education, divided between primary care medicine and various 
specialties, including family medicine, internal medicine, pediatrics, 
obstetrics and gynecology, surgery and surgical specialties, internal 
medicine subspecialties, emergency medicine, and psychiatry. During 
clinical rotations, PA students work directly under the supervision of 
physician preceptors, participating in the full range of patient care 
activities, including patient assessment and diagnosis, development of 
treatment plans, patient education, and counseling.
    After graduation from an accredited PA program, the physician 
assistant must pass a national certifying examination jointly developed 
by the National Board of Medical Examiners and the independent National 
Commission on Certification of Physician Assistants. To maintain 
certification, PAs must log 100 continuing medical education credits 
over a two-year cycle and reregister every two years. Also to maintain 
certification, PAs must take a recertification exam every six years.
    A growing number of PAs possess master's degrees, and the majority 
of PA educational programs now offer master's degrees. According to 
data collected by the AAPA, 61.7 percent of PAs graduating from a PA 
educational program in 2004 received a master's degree. Approximately 
80 percent of the 137 PA educational programs currently offer master's 
degrees.

Physician Assistant Practice
    Physician assistants are licensed health care professionals 
educated to practice medicine as delegated by and with the supervision 
of a physician. In all states, physicians may delegate to PAs those 
medical duties that are within the physician's scope of practice and 
the PA's training and experience, and are allowed by law. Forty-eight 
states, the District of Columbia, and Guam authorize physicians to 
delegate prescriptive privileges to the PAs they supervise.
    PAs always work with physicians. However, this does not mean that 
the physician is necessarily on site, nor does it suggest that PAs do 
not make autonomous medical decisions. PAs employed by the State 
Department, for example, may work with a physician who is a continent 
away and available for consultation by telecommunication.
    PAs are located in almost all health care settings and in every 
medical and surgical specialty. Nineteen percent of all PAs practice in 
non-metropolitan areas where they may be the only full-time providers 
of care (state laws stipulate the conditions for remote supervision by 
a physician). Approximately 41 percent of PAs work in urban and inner 
city areas. Approximately 44 percent of PAs are in primary care. Nearly 
one-quarter practice in surgical specialties. Roughly 80 percent of PAs 
practice in outpatient settings. In 2004, an estimated 206 million 
patient visits were made to PAs and approximately 250 million 
medications were prescribed or recommended by PAs.
    PAs are covered providers within Medicare, Medicaid, Tri-Care, and 
most private insurance plans. Additionally, PAs are employed by the 
federal government to provide medical care, including the Department of 
Defense, the Department of Veterans Affairs, the Public and Indian 
Health Services, the State Department, and the Peace Corps. PAs are 
designated as covered providers in the overwhelming majority of State 
workers' compensation programs. (A chart is attached to the testimony, 
summarizing coverage of medical services provided by PAs in the State 
workers' compensation programs.)

Physician Assistants in Occupational Medicine
    Physician assistant versatility and interpersonal skills are well 
suited to the demands of occupational medicine. Working as part of a 
medical team, physician assistants participate in the promotion of 
employee health, including the treatment of occupational injuries and 
illnesses, preventive and pre-placement examinations, health 
maintenance activities, immunization programs, Department of 
Transportation exams, workers' compensation case management follow-up, 
and health and safety education.
    PAs deliver employee health services in diverse settings--corporate 
medical offices, occupational medicine clinics, private physician 
offices, hospital employee health departments, clinics for production 
plants or mines, remote pipeline locations, aboard ship, on military 
bases, and on the White House medical staff.
    The US Department of Transportation allows PAs to perform and sign 
truck driver physicals. The regulations identify the responsibilities 
of the medical examiner in performing and recording the physical 
examination (49 CFR, Part 391.43) and define physician assistants as 
medical examiners. PAs are employed in occupational medicine roles by 
numerous federal agencies, including the Department of Veterans Affairs 
and the Department of Defense. OSHA recognizes PAs as qualified 
occupational medicine providers able to ``perform physical 
examinations, identify health problems, and plan therapeutic 
interventions.''
    Following are a few examples of PAs who practice in occupational 
medicine.

            PA Fills Diverse Role with Occupational Med Company
    A PA working for Mercy Occupational Health--a clinic providing 
occupational medicine services to a diverse range of employers 
including General Motors, Wal-Mart, Lear Jet, local school districts, 
and service industry employers--treats patients with a wide range of 
work-related injuries, including strains, lacerations, and repetitive 
stress ailments. After diagnosis, she equips employees with detailed 
written instructions concerning all aspects of their recovery, 
including the use of prescribed medications and how to best protect 
injured areas against further damage. She consults with managers about 
lighter duty assignments during employee recovery. Follow-up visits 
help to ensure a full and well-coordinated recovery.
    The PA administers a range of pre-placement physicals for 
employers, including fitness tests and drug screenings tailored to 
reflect the physical demands of the work to be performed. In addition, 
she performs DOT physicals for employers including the local school 
district and Federal Express.
    This physician-PA team effectively increases patient access to care 
by sending the PA off-site to provide care at a laboratory equipment 
factory four hours a week. The physician is available for consultation 
by phone if necessary while the PA sees the workers, many of whom have 
no other medical provider. By answering their medical questions and 
providing general health education, the PA helps keep the factory 
workers well and able to work in a physically demanding setting.

            PA Care at Los Alamos
    The workers and researchers of Los Alamos Nuclear Laboratory 
receive their occupational health services from a physician assistant. 
This PA specializes in the prevention, diagnosis, and referral of 
radiation-related conditions. To help Los Alamos fulfill strict 
Occupational Safety and Health Administration (OSHA) regulations 
concerning radiation exposure, he conducts rigorous medical exams for 
employees on a yearly basis. The PA also treats the researchers 
employed by the facility who travel to remote locations and return with 
ailments related not only to radiation exposure but also more mundane 
problems such as stomach ailments. A physician is always on-site at the 
facility and coordinates care with the PA.

            PA Versatility Shows at New York Presbyterian Hospital
    A PA employed by New York Presbyterian Hospital treats a diverse 
population of hospital employees and Cornell University researchers. 
Her versatility is impressive, ranging from pre-placement exams to 
developing preventive worker safety measures. In conducting pre-
placement examinations for candidates offered employment by the 
hospital, she tests for TB, illegal substances, and HIV, and gauges 
applicants' physical fitness to perform job duties. This PA also serves 
as a main contact person for impaired employees, making referrals to 
drug and alcohol treatment centers.
    As a certified New York state HIV educator, the PA at New York 
Presbyterian Hospital conducts employee safety training for hospital 
employees at risk for HIV exposure through blood or body fluid 
exposure. This PA also oversees a program addressing the special health 
needs of Cornell researchers working in a Biosafety Level 3 Lab. Here 
researchers are exposed to a variety of health risks through their 
contact with lab animals, including rare viruses. To protect against 
these hazards, the PA has devised and implemented lab safety measures 
in cooperation with the New York State Department of Health and 
laboratory and hospital officials.

            CDC Employs Occupational Medicine PAs
    At the federal Centers for Disease Control and Prevention (CDC), a 
PA cares for researchers who typically spend a month at a time in ``hot 
spots'' or disease outbreak areas around the world. His practice 
combines travel medicine with infectious disease medicine. Researchers 
generally return with at least one ailment, ranging in seriousness from 
digestive problems to malaria. One of the PA's specialty areas is the 
testing of researchers' fitness for the use of physically demanding 
protective gear. Cardiopulmonary tests gauge employees' fitness for use 
of protective gear used in highly toxic environments. Working closely 
with his supervising physician, he coordinates the annual bioterrorism 
fitness exams required of CDC researchers.
    His other large patient base consists of CDC office workers who 
typically suffer from carpal-tunnel syndrome and similar repetitive 
stress injuries. In these cases, the PA collaborates with the CDC's 
industrial hygienist to restructure employees' workstations along 
ergonomic standards and trains employees in preventive measures against 
repetitive stress.

            State Department Counts on Versatility
    The U.S. Department of State employs occupational medicine PAs to 
provide medical care to State Department employees and their families 
overseas. For example, a PA working for the State Department manages 
family medicine as well as emergency medical crises. In addition, he 
serves as the medical liaison between employees and host country 
medical personnel and facilities, inspecting local hospitals to 
determine their quality of care. In countries where acceptable 
inpatient care is not available, he has developed alternative sites 
where patients can be stabilized prior to airlift to hospital. This 
PA's work epitomizes the clinical range and organizational versatility 
of PAs in occupational medicine.

            PA Practice at Saint Raphael's Occupational Health Plus
    The hospital-based occupational medicine practice where I work has 
300 clients. For our federal clients, like the FBI and the Post Office, 
we perform pre-employment physicals and treat injuries that are covered 
by FECA. With respect to the workers on the merchant ships arriving in 
New Haven Harbor, virtually all illnesses and injuries are covered 
under workers' compensation. We do a lot of work with employees who 
have back, shoulder, and knee injuries. In order to be most effective 
as a clinician, it is important for me to be familiar with the 
workplace and know about the workers' compensation system so that 
informed decisions can be made about returning employees to work.
    My day at Saint Raphael's Occupational Health Plus is typically 
divided between seeing employees with work-related injuries and doing 
examinations on individuals who are being hired or employees who need 
periodic screening. Injuries are generally musculoskeletal sprains and 
strains, but may also involve lacerations, burns, fractures, or eye 
injuries. Evaluating and treating employee exposures to infectious 
agents like tuberculosis or bloodborne pathogens (i.e., Hepatitis B or 
HIV) may also be involved. Pre-placement examinations are performed 
immediately before the employee is hired. Periodic examinations are 
performed to evaluate potential health effects of exposures to 
chemicals or other things in the worker's environment. They are also 
completed to evaluate the worker's continuing ability to safely perform 
their jobs, such as DOT physicals for truck drivers or respirator 
examinations for firefighters.
    What does it mean for my practice that I can not sign FECA claims 
forms as a PA? The bottom line is that unless the physician signs the 
form, the DOL's Office of Workers' Compensation will not honor the FECA 
claim. At a minimum, this means that the physician can not make the 
maximum use of my skills and must sign every workers' compensation 
form. Quite frankly, this is not the best use of the physician's time 
and expertise. The problem is exacerbated when I'm performing on-call 
services for the practice or if I'm providing after-hours care at the 
practice. Physicians hire PAs to extend their reach and to extend 
access to care. Many physicians also hire PAs to make life a little 
easier for them--to share on-call duties and to provide after-hour 
care.

The Problem with the Federal Employees Compensation Act
    In letters responding to congressional inquiries on PAs and FECA, 
the Office of Workers' Compensation has taken the position that claims 
or reports are not acceptable if they have been signed by a PA, because 
PAs are not included in FECA's definition of ``physician'' (section 
8101 (2)).
    In a December 2001 letter to Senator Gramm, the Director of the 
Office of Workers' Compensation Program wrote:
    OWCP is responsible for the administration of the Federal 
Employees' Compensation Act (FECA). In Section 8101(2) of this Act, 
physicians are defined as
        surgeons, podiatrists, dentists, clinical psychologists, 
        optometrists, chiropractors, and osteopathic practitioners 
        within the scope of their practice as defined by State law.
    Since Physician's [sic] Assistants are not included in this 
definition, we are unable to accept their clinical reports as medical 
evidence unless these reports are countersigned by a physician.
            Why It Makes Good Sense and Good Public Policy to Update 
                    FECA to Allow PAs to Diagnose and Treat Federal 
                    Employees who are Injured on the Job
    Simply put, the current restriction limiting PAs ability to provide 
care to federal workers who are injured on the job results in added 
costs to the system, unnecessarily limits federal workers' access to 
quality medical care, restricts federal workers' choice of preferred 
health care professional, and may result in problems related to 
continuity of care.
    PAs currently jump through hoops to ensure that physicians sign the 
workers' compensation claim in order to make the system work for the 
injured employee and the practice. However, physicians aren't always 
available--particularly in rural and urban medically underserved 
communities where PAs may be the only health care professional serving 
the community or in clinics staffed by PAs that provide care during 
evenings and weekends. Following are a few of the personal examples 
that we've heard from PAs regarding the FECA problem.
    <bullet>  A PA in Georgia informed us that federal workers were 
advised to use hospital emergency rooms for non-emergency care, rather 
than receiving care after-hours at local clinics where PAs were the 
only health care professional on-site. Ironically, the care provided in 
the emergency room could be provided by a PA--at 4-5 times the cost.
    <bullet>  A federal worker in Massachusetts recently asked a PA in 
a surgical practice where he had undergone surgery to suture a 
laceration on his leg that occurred while on the job. The physician was 
not in the office that day, and the PA had two choices--to send her 
patient to the emergency room or to provide the care, knowing that the 
practice wouldn't be reimbursed. She chose continuity of care and 
sutured his leg.
    <bullet>  Every rural community in the nation has at least one 
employee of the U.S. Postal Service. A PA from Iowa commented that it 
made no sense that she could provide medical care to this employee on 
an ongoing basis, but not be able to collect reimbursement for 
attending to a dog bite or other injury that occurred on the job.
    We also understand that the FECA issue is particularly troublesome 
in the Peace Corps and State Department where many injuries and 
illnesses are covered under the Federal Workers' Compensation Program.
    As federal employees, Subcommittee Members and staff have the 
option of seeing a PA through your Federal Employee Health Benefit 
Plan. But, you may not be able to see the PA if you're injured during 
working hours.
    There is also another very good reason to update FECA to allow PAs 
the ability to diagnose and treat injured workers--the shortage of 
physicians in occupational medicine. According to the American Board of 
Preventive Medicine, only 3,332 physicians have been certified in 
occupational medicine since 1955, and only 1,500 -1,800 of these 
physicians are actually in practice today. This number falls far below 
the Bureau of Health Professions' estimated need of 4,830 physicians 
certified in occupation medicine or the Institute of Medicine's need 
estimate of 3,100 -5,500 occupational medicine physicians.
    We believe that expanded access to care and continuity of care for 
federal workers are compelling reasons to update FECA to recognize PAs, 
as are potential cost savings and meeting the need that is created by 
the physician workforce shortage in occupational medicine. After all, 
that's why the physician-PA team concept was created--to expand the 
physician's ability to provide care.
    Thank you for the opportunity to present testimony before the 
Subcommittee. I look forward to responding to your questions.
    [An attachment to Mr. Kohlhepp's statement follows:]

    [GRAPHIC] [TIFF OMITTED] T1548.001
    
                                ------                                

    Mr. Norwood. Thank you very much.
    Having spent 45 days in the hospital last year, I got to 
know your crowd pretty well.
    I know what you guys do.
    Mr. Kohlhepp. I am happy to hear that we played an 
important role in your recovery.
    Mr. Norwood. They did, indeed.
    Dr. Towers, you are now recognized for 5 minutes for 
testimony.

 STATEMENT OF JAN TOWERS, PhD, NP-C, CRNP, FAANP, DIRECTOR OF 
    HEALTH POLICY, AMERICAN ACADEMY OF NURSE PRACTITIONERS, 
                         WASHINGTON, DC

    Dr. Towers. I am here representing the American Academy of 
Nurse Practitioners, which is the full-service organization 
that represents over 90,000 nurse practitioners of all 
specialties throughout the United States. I am the director of 
health policy, but I am also a family nurse practitioner, and I 
am here to speak to the proposed amendment to the Federal 
Employees' Compensation Act.
    Certified registered nurses are advanced practice nurses 
who have completed a formal nurse practitioner program 
culminating in a minimum of a Master's education beyond their 
4-year baccalaureate education in professional nursing. This 
means they have a total of 6 years of preparation in the 
medical and health care field.
    Most, in addition, are seasoned nurses before they go back 
for their graduate degree to become a nurse practitioner, and 
we then become educated by specialty, and our specialties 
follow along the same lines as the physician specialties, with 
family, internal medicine, pediatrics, gerontology, etcetera.
    Nurse practitioners are prepared to be primary care 
providers in today's health care arena, and they have been 
recognized as medical providers in the Federal employee health 
insurance program since the 1980's.
    As the Committee knows, nurse practitioners are highly 
qualified health care providers who have demonstrated their 
skill in providing primary care to individuals in both rural 
and urban settings, regardless of age, occupation, or income. 
The quality of their care has been well documented over the 
years.
    With their advanced preparation, they are able to manage 
the medical and health problems seen in the primary care and 
acute care settings in which they work.
    Nurse practitioners constitute an effective body of health 
care providers that may be utilized as a cost savings in both 
fee-for-service and managed care arenas in the country.
    Recent managed care data reports an aggregate patient-per-
month cost savings of over 50 percent among patients seen by 
nurse practitioners when compared to similar patients being 
seen by physicians, and I did bring a document here that has a 
number of citations that speaks to similar kinds of findings 
and studies.
    Other cost savings realized when nurse practitioners are 
properly utilized include savings due to reductions in 
emergency room visits and hospitalizations.
    In relation to cost, not recognizing nurse practitioners as 
attending providers for Federal employees in the Federal 
employees compensation program actually creates a cost for the 
Federal Government, because the patient is required to see a 
physician for any work related to a work-related medical 
problem.
    This potentially increases the number of medical encounters 
incurred by patients who will continue to see their regular 
health care provider for other medical problems while seeing 
the required physician provider for the problem coming under 
the aegis of the Federal employees compensation program.
    Nurse practitioners diagnose and treat patients of all ages 
and walks of life. This includes taking patient histories, 
conducting physical examinations, ordering and interpreting 
their diagnostic tests, and prescribing medications and other 
treatments for their medical problems.
    Nurse practitioners are often the only provider in a 
particular health care setting. In rural areas, it means that 
patient have to travel distances to see other providers when 
that is required.
    The inability of nurse practitioners to serve their 
patients when an occupationally related injury or illness 
occurs not only creates additional cost by forcing patients to 
go elsewhere for the care of these conditions, often to the 
more expensive emergency rooms, but also creates fragmentation 
of care that can have implications for other health care 
outcomes.
    Nurse practitioners are covered medical providers in 
Medicare, Medicaid, Tricare, and private insurance plans, as 
well as the Federal employees health insurance program. They 
serve as medical providers in the VA, the Department of 
Defense, and the Indian Health Service.
    They are capable of performing services for workman's 
compensation patients in state programs but are still excluded 
from doing the same for Federal employees who are under their 
care.
    Nurse practitioners are licensed to practice in all 50 
states and the District of Columbia.
    They are authorized to diagnose, treat, and prescribe 
medications under their own signatures.
    They are board-certified.
    They carry malpractice insurance.
    They are capable of making medical judgments related to 
occupational hazards, diseases, and injuries.
    They have an outstanding record for providing high-quality 
care, and they are cost-effective.
    According to the current statute, Federal employees come 
under the jurisdiction of the Federal Employees' Compensation 
Act, have the right to choose their own health care provider 
for the treatment of their condition. Yet if their health care 
provider is a nurse practitioner, they are forced to go 
elsewhere for that part of their medical care, even though the 
nurse practitioner is perfectly qualified to provide the care 
they need.
    It is for this reason that we are asking the Federal 
Employees' Compensation Act be amended to include nurse 
practitioners as medical providers in that act, and we thank 
you for the opportunity to speak with you, and I will be glad 
to answer any questions.
    [The prepared statement of Dr. Towers follows:]

  Statement of Jan Towers, PhD, NP-C, CRNP, FAANP, Director of Health 
    Policy, American Academy of Nurse Practitioners, Washington, DC

    My name is Jan Towers. I am here representing the American Academy 
of Nurse Practitioners, the full service organization representing over 
90,000 nurse practitioners of all specialties throughout the United 
Sates. I am the Director of Health Policy and a family nurse 
practitioner. I am here to speak to the proposed amendment to the 
Federal Employees' Compensation Act that would allow nurse 
practitioners and physician assistants to be covered providers under 
that act.
    Certified registered nurse practitioners are advanced practice 
nurses who have completed a formal nurse practitioner program 
culminating in a minimum of a Master's education beyond their four-year 
baccalaureate education in professional nursing. They are prepared to 
be primary care providers in today's health care arena. As the 
committee knows, nurse practitioners are highly qualified health care 
providers who have demonstrated their skills in providing primary care 
to individuals in both rural and urban settings regardless of age, 
occupation or income. The quality of their care has been well 
documented over the years. With their advanced preparation, they are 
able to manage the medial and health problems seen in the primary care 
and acute care settings in which they work.
    Nurse practitioners constitute an effective body of health care 
providers that may be utilized at a cost savings in both fee for 
service and managed care arenas in this country. Recent managed care 
data reports an aggregate patient per month cost savings of over 50% 
among patients seen by nurse practitioners when compared to similar 
patients being seen by physicians. Other cost savings realized when 
nurse practitioners are properly utilized include savings due to 
reductions in emergency room visits and hospitalizations.
    Not recognizing nurse practitioners as attending providers for 
federal employees in the Federal Employees' Compensation Program 
actually creates a cost for the federal government because the patient 
is required to see a physician for any work related medical problem. 
This potentially increases the numbers of medical encounters incurred 
by patients who will continue to see their regular health care provider 
for other medical problems while seeing the required physician provider 
for the problem coming under the aegis of the Federal Employees' 
Compensation Program.
    Nurse practitioners diagnose and treat patients of all ages and 
walks of life. This includes taking patient histories, conducting 
physical examinations, ordering and interpreting their diagnostic tests 
and prescribing medications and other treatments for their medical 
problems. Nurse practitioners are often the only provider in a 
particular health care setting. In rural areas this means that patients 
have to travel distances to see other providers. The inability of nurse 
practitioners to serve their patients when an occupationally related 
injury or illness occurs, not only creates additional costs by forcing 
patients to go elsewhere for the care of theses conditions (often to 
more expensive emergency rooms), but also creates fragmentation of care 
that can have implications for other health care outcomes.
    Nurse practitioners are covered medical providers in Medicare, 
Medicaid, Tri-care and private insurance plans. They serve as medical 
providers in the Veterans Administration, the Department of Defense and 
the Indian Health Service. They are capable of performing services for 
worker's compensation patients in state programs, but are still 
excluded from doing the same for federal employees who are under their 
care.
    Nurse practitioners are licensed to practice in all fifty states 
and the District of Columbia. They are authorized to diagnose, treat 
and prescribe medications under their own signature. They are Board 
certified. They carry malpractice insurance. They are capable of making 
medical judgments related to occupational hazards, diseases and 
injuries. They have an outstanding record for providing high quality 
care.
    According to the current statute, federal employees coming under 
the jurisdiction of the Federal Employees' Compensation Act, have the 
right to choose their own health care provider for the treatment of 
their condition. Yet, if their health care provider is a nurse 
practitioner, they are forced to go elsewhere for that part of their 
medical care, even though the nurse practitioner is perfectly qualified 
to provide the care they need. It is for this reason that we are asking 
the Federal Employees Compensation Act be amended to include nurse 
practitioners as medial providers in the act.
    We thank you for the opportunity to discuss this issue with you. I 
will be glad to answer questions or provide you with further 
information that you may need.
                                 ______
                                 
    Mr. Norwood. Thank you, Dr. Towers.
    Mr. Kline, you are recognized for 5 minutes for questions.
    Mr. Kline. Thank you, Mr. Chairman.
    I would like to thank the witnesses for being here today.
    We discovered in the earlier panel that the occupation of 
one's spouse may sometimes indicate a level of interest. I 
would have to admit that my spouse has spent 30 years as a 
registered nurse, so I have been following the testimony of Dr. 
Towers very closely, and it does seem to me we have a serious 
disconnect here. I have got a couple of notes here, and some 
questions, and I will direct them to you, if I could, Dr. 
Towers.
    You mention that the nurse practitioners are board 
certified and carry liability insurance. Is there a difference 
in that insurance between a nurse practitioner and a physician 
both in coverage and cost?
    Dr. Towers. In coverage, we cover 1 million/3 million, 
generally, which is about the same as a physician, and the cost 
right now is considerably less than a physician. We still pay 
less than $1,000 a year for malpractice insurance. So, we have 
been very well protected.
    Our malpractice rate is quite low, less than 1 percent, and 
that has not changed.
    We did studies in 1989 and in 1999 and just completed 
another study, national study, last year, and that rate is just 
about the same as where it was in 1989.
    Mr. Kline. Thank you.
    You also mentioned that nurse practitioners are covered 
medical providers under Medicare, Medicaid, Tricare, I think 
you said, and some others. Do you know--are nurse practitioners 
and physicians treated the same, exactly the same, in those 
programs, and if not, what the differences might be?
    Dr. Towers. The difference in some of the programs, such as 
Medicare, is a difference in reimbursement. For every 100 
percent of the physician payment, where you have $100, the 
nurse practitioner's reimbursement would be 85. It's 85 percent 
of the physician cost. The activities are the same within the 
primary care piece. Nurse practitioners are not in surgery, but 
they do work in sub-specialties in relation to things like 
orthopedics.
    Mr. Kline. OK. Thank you.
    I will ask one more question and yield back.
    Do you know, yourself, if state workers' compensation 
programs allow nurse practitioners to be designated as medical 
providers?
    Dr. Towers. Yes, they do, and this is not 100 percent at 
this point, but I think one of the reasons this came to the 
surface, because we were doing workman's comp for other things 
in the state, and then you would get a Federal employee in your 
practice come to you, and suddenly you could not sign something 
that you have been signing for everybody else, and that is how 
we became aware that we were beginning to have a problem with 
this.
    Mr. Kline. That there was a discrepancy?
    Dr. Towers. Yes.
    Mr. Kline. Would you say that was true in most of the 
states?
    Dr. Towers. I would say, at this point, we are probably 
around half or over half.
    We are doing it--it is something that has grown over the 
past several years.
    More and more states are recognizing nurse practitioners to 
do this.
    I certainly do it in Maryland.
    Mr. Kline. Well, thank you for the questions. I do see a 
very serious disconnect here, and I was interested in your 
testimony talking about how you have someone whose primary care 
provider is a nurse practitioner, they are injured, and 
suddenly they have to go someplace else, and it looks like we 
ought to be able to fix that.
    Thank you, Mr. Chairman.
    I yield back.
    Mr. Norwood. The gentleman yields back.
    Dr. Price, you are recognized.
    Dr. Price. Thank you, Mr. Chairman, and I want to thank you 
all for coming, as well. I am sorry that I was not here for 
your testimony. We had a vote on the floor, and I apologize.
    As you may know, I am an orthopedic surgeon from Georgia, 
and we have some interesting scope-of-practice issues in that 
state, as you know. It is always a challenge, and the challenge 
that we have as policymakers is to make certain that patients 
are provided quality care, and I know that you concur with 
that.
    Dr. Towers. That is correct.
    Dr. Price. That is your goal, as well.
    Professor, I am interested in--and I am sorry I did not 
hear your testimony, but I am interested in kind of the history 
of PAs and how they relate to physicians and how you see that 
relationship changing, if at all, if we were to adopt this 
legislation.
    Mr. Kohlhepp. Well, thank you very much for that question.
    Certainly, the history of the physician assistant 
profession started in the mid-1960's at a time of significant 
shortage of particularly primary care physicians, was the 
specialty that was really lacking, and physician assistants 
that came out of the Duke University system--Dr. Eugene Stead 
started the profession, and it started with three Navy 
corpsmen.
    So, it has a long history both with physician education, 
physician educators, a commitment to the physician-PA team, and 
I do not see that commitment ever changing, and certainly, this 
legislation will allow physicians to better use PAs and to more 
efficiently and seamlessly see a series of patients in their 
practice, rather than trying to say which patient has what kind 
of insurance when they are coming in the door. That makes a 
great deal of difficulty for a practice.
    Dr. Price. As a physician extender, if you will? Is that 
fair to say?
    Mr. Kohlhepp. Personally, I like to refer to both 
professions as physician assistants and advanced practice 
registered nurses and nurse practitioners, whatever they 
prefer, but it certainly is a role that we play, where we 
extend the ability of physicians to provide access, quality of 
care, and cost-effective care.
    Dr. Price. How close is the physician physically to PAs 
when they are practicing?
    Mr. Kohlhepp. As I mentioned in my testimony----
    Dr. Price. I am sorry.
    Mr. Kohlhepp. I recognize that you needed to vote.
    PAs are in a variety of settings, and the presumption is 
that supervision is active and that the physician is 
supervising the PA, providing conversations before patient 
care, quality checks after patient care, and availability 
during patient care, but availability can be via 
telecommunication, particularly in rural sites or inner city 
communities, was the two examples I used in my testimony, where 
a physician may not be physically present. That does not mean 
that supervision is not effective.
    Dr. Price. I understand.
    Dr. Towers--and again, I am sorry, I missed the beginning 
of your statement, but tell me about the numbers of APNs across 
the nation.
    Dr. Towers. There are 106,000 nurse practitioners at this 
point in time in the United States.
    Dr. Price. Is there any evidence that they practice in 
settings--any objective evidence where--that they practice in 
settings where physicians do not?
    Dr. Towers. Oh, yes.
    Dr. Price. Is that in your testimony?
    Dr. Towers. I do not know that we put it quite that way, 
but nurse practitioners are often utilized in areas, and your 
state is one of them, where there are no physicians available, 
and you have got one of the most interesting states in terms of 
how they manage to function with some of the things they have 
to deal with in the state as far as statute and regulation is 
concerned, but nurse practitioners will be sole providers in 
consultation with other health care providers, including 
physicians in many areas, and in our rural areas, it is 
particularly prevalent.
    Dr. Price. I suspect you all have data on that, do you not?
    Dr. Towers. Yes, we do.
    Dr. Price. Would you be able to provide that?
    Dr. Towers. We certainly can, and we can tell you there are 
some states that do not have requirements for physicians to be 
hooked into--for them to be hooked into a physician in a formal 
manner.
    That does not mean that they do not consult and that they 
do not have their network of health care providers, which 
include physicians, that they utilize regularly, and so, we 
have about 13 states that--where nurse practitioners actually 
function that way at this point in time.
    Dr. Price. Do you see this legislation resulting in a 
collaborative relationship between APNs and physicians in a 
structured way or just----
    Dr. Towers. I think it would be according to how the state 
laws establish the relationship. What would be required of them 
in the state in terms of their license and how they function 
under their license would be the way that--it would be 
consistent with this. In terms of collaborating with 
physicians--if you are thinking about are there things that get 
out of their scope, every nurse practitioner has to have a way 
to deal with things that are outside their scope, and so, you 
have a referral network that you utilize, or consulting 
network. That is what the collaboration word means for us.
    Dr. Price. Us, as well.
    Thank you so much.
    I yield back.
    Mr. Norwood. The gentleman yields back.
    Mr. Owens, you are recognized.
    Mr. Owens. Mr. Chairman, I just have one brief question, 
and that is for Dr. Towers.
    Would you agree that nurse anesthetists should be able to 
provide services under FECA as part of an advanced practice 
category?
    Dr. Towers. Yes. We do not see any problem with that. The 
reason this became--was a nurse practitioner issue is because 
we are the ones that are generally hit with not being able to 
function with our patients in relation to this. When a patient 
can choose a--their attending provider, why that attending 
provider is generally not going to be an anesthetist or, you 
know, some of the other advanced practice groups.
    The nurse practitioners are the ones that are sitting in 
the position where, when it comes to documenting and 
recognizing that someone has a problem and determining what 
needs to be done about it, they are the ones that are finding 
that they cannot provide that service, unless they want to do 
it free, and even then it does not work, even if they do it for 
free, because you have to have that physician's signature on 
these documents, which means you have to go find a physician to 
do it.
    So, that is why this has been focused mainly on nurse 
practitioners, but we have no problems with other kinds of 
advanced practice nurses being included. We need to look and 
see how they would fit into the pattern.
    Mr. Owens. I have no further questions, Mr. Chairman.
    I want to thank the witnesses and apologize for the fact 
that we had to go to vote, but I have your written testimony. 
Thank you.
    Mr. Norwood. Thank you, Mr. Owens.
    I will just quickly follow up. Is there anybody who opposes 
that, that Mr. Owens just suggested?
    Dr. Towers. I do not think so.
    Mr. Norwood. Mrs. Drake, I think you are recognized next.
    Mrs. Drake. Thank you, Mr. Chairman, and again, thank you 
for being here.
    I am just trying to understand the issue in my mind, 
because in Virginia, nurse practitioners do work under a 
physician, and I have used a nurse practitioner. It was a 
wonderful person, did a good job.
    I am not familiar with physician assistants personally, but 
when you reference these 13 states that--where nurse 
practitioners can work, do you mean they are completely on 
their own?
    There is no physician overseeing them in any form at all?
    Dr. Towers. According to state statute, that is correct, 
yes, and they function in rural areas. They are in rural health 
clinics, and if you have Federal clinics--I mean there is 
always a physician around some way, but not in a formalized 
manner, and in those states, they could have their own 
practices, and they do.
    Mr. Owens. Medicaid/Medicare would pay them directly with 
no physician in the middle.
    Dr. Towers. Right.
    Mr. Owens. I had wondered if part of the reason that their 
liability insurance was so low was because there was a 
physician also responsible, but the answer to that would be no.
    Dr. Towers. No. That is right.
    Mr. Owens. All right. Well, thank you very much.
    I yield back, Mr. Chairman.
    Mr. Norwood. The lady yields back.
    I have a question for one of the Members.
    Dr. Price, do physicians usually only cover themselves up 
to a million dollars in malpractice?
    Dr. Towers. 1 million/3 million.
    Dr. Price. It depends on the state or the hospital in which 
they practice. Many hospitals have their own levels.
    1/3 is customary, 2/6 in some areas, but depending on your 
style of practice----
    Mr. Norwood. Surgeons get it up as high as they can.
    Dr. Price. We, at one point, had 15 million/30 million, 
because we had a fellow who was taking care of professional 
athletes.
    Mr. Norwood. Would any Members like to ask additional 
questions?
    We thank you very much for the time that you have given us 
and your expertise on this subject. You have done very well, 
and we appreciate it. We may follow up with some written 
questions, if that is all right, that we would like to put in 
the record, and with that, this hearing is now adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    [The prepared statement of Mrs. Capps follows:]

  Prepared Statement of Hon. Lois Capps, a Representative in Congress 
                      From the State of California

    Thank you for holding this hearing.
    Mr. Chairman, America's fire fighters are the best trained and best 
equipped in the world. And they provide unparalleled service to our 
communities.
    They do their job as well in large part because of their bravery 
and skill. And, they are helped along in this job by some of the 
prevention measures for which they have tirelessly advocated. With the 
help of better safety equipment, such as flame retardant suits, fire 
fighters can get to the heart of fires quicker and pull more victims to 
safety.
    All Americans benefit from that.
    But I don't need to tell anyone that fire fighting continues to be 
extremely dangerous. More than ever, fire fighters are working longer, 
harder hours, uncertain of what dangers lay ahead.
    After September 11th, America needs its firefighters to be better 
prepared to respond to deliberate acts of terror and destruction. The 
fire service needs to be better prepared to deal with bioterrorism and 
it needs to be prepared to help save people who have been attacked with 
toxic chemical weapons.
    In short, America's fire departments need to be prepared for what 
once seemed unthinkable.
    I think most people don't understand--until they go through a fire 
or an emergency--exactly how many roles firefighters play, and how 
dangerous there job often is.
    As a public health nurse, I know it is critical to provide adequate 
presumptive disease coverage, especially coverage that extends beyond 
respiratory disease.
    Science tells us that when we combine high levels of stress with 
environmental exposure to toxins, serious ailments can result. Fire 
fighting is hazardous enough--the least we can do is to extend 
presumptive coverage to these work-related illnesses.
    For that reason, my colleague Jo Ann Davis and I have introduced 
H.R. 697, the Federal Fire Fighters Fairness Act of 2005.
    This legislation creates a presumptive disability for Federal fire 
fighters who become disabled by heart or lung disease, cancers such as 
leukemia or lymphoma, and infectious diseases like tuberculosis and 
hepatitis.
    We introduced this bipartisan legislation on behalf of thousands of 
Federal fire fighters.
    At great personal risk, these men and women protect America's 
defense installations, our veterans, Federal wild lands, and other 
national treasures. Yet when they present with work-related illnesses, 
Federal law denies them compensation and retirement benefits unless 
they can point to the specific conditions that caused their disease.
    This onerous requirement makes it nearly impossible for Federal 
fire fighters to receive fair and just compensation or retirement 
benefits. The bureaucratic nightmare they must endure is burdensome, 
unnecessary, and in many cases, overwhelming.
    It's ironic and unjust that the very people we call on to protect 
us are not afforded the health care and retirement protection that they 
deserve.
    Too frequently, the poisonous gases, asbestos and other hazardous 
substances that Federal fire fighters and emergency response personnel 
come in contact with, rob them of their health, livelihood, and 
professional careers.
    The Federal Government should not rob them of necessary benefits.
    The Federal Fire Fighters Fairness Act will help protect the lives 
of our fire fighters and it will provide them with a vehicle to secure 
their health and safety.
    In recent years, there has been a greater appreciation for the 
risks fire fighters and emergency response personnel face every day. 
Thirty-eight states have already enacted similar disability presumption 
laws for state and local fire fighters. It's time to provide the same 
protection for Federal fire fighters.
    Recently, I learned of a case involving one of the Federal fire 
fighters in my district at Vandenberg Air Force Base. He's been 
fighting brain cancer for the past six months and continues radiation 
treatment. This father of three is responsible for $14,000 in co-pays 
for his treatment.
    Without presumptive care protection he has only limited Federal 
insurance coverage and must rely on the support of his fellow 
firefighters. I applaud his fellow firefighters for stepping up to the 
challenge--but it's the Federal government's responsibility.
    We need to secure presumptive rights for Federal Firefighters now.
    This bill is the right thing to do and we should make every effort 
to pass it.
    Thank you again for having this hearing, and I wish to thank all of 
our nation's firefighters and emergency response personnel for 
everything they do.
                                 ______
                                 
    [The prepared statement of Mr. Bishop follows:]

 Prepared Statement of the Hon. Timothy H. Bishop, a Representative in 
                  Congress From the State of New York

    Mr. Chairman, thank you for calling this important hearing to 
examine how we can make the Federal Employees' Compensation Act a 
better law.
    In particular, I think it's important that we are taking this 
opportunity to acknowledge how fire fighters who have sustained 
injuries or illnesses in the line of duty--while protecting federal 
property--have experienced difficulty receiving disability benefits.
    Federal fire fighters have some of the most dangerous 
responsibilities in the country. Protecting our national interests on 
military bases, nuclear plants, and other federal facilities often 
expose them to toxic substances, temperature extremes and stress.
    Since September 11, they have assumed a greater responsibility to 
prepare for emergencies and stand ready to place their lives on the 
line to protect our families and our communities.
    It's regrettable that while 38 states have passed laws shifting the 
burden to the government to disprove a fire fighter's claim that he or 
she was disabled on the job, this same standard does not apply to 
claims filed by federal fire fighters.
    Cutting through the red tape in order to receive the compensation 
they deserve is a tremendous burden, unnecessary, and in many cases, 
overwhelming.
    It's ironic that the very people we call on to protect our Nation's 
interests are not afforded the very best health care and retirement 
benefits our government has to offer.
    That is why yesterday I cosponsored the legislation introduced by 
our colleague from Virginia, Mrs. Davis (H.R. 697, the Federal Fire 
Fighters Fairness Act)--to shift the burden of proof in disability 
claims to the federal government and make it easier for our brave fire 
fighters to claim the fair and just compensation they deserve.
    I am very pleased to add my name to H.R. 697, and once again thank 
our fire fighters for their courage and service to our country.
                                 ______
                                 
    [The American Nurses Association statement follows:]

       Advanced Practice Registered Nursing: A Solution for FECA

    Thank you for the opportunity to provide a statement for the record 
regarding the Federal Employees Compensation Act (FECA). ANA is the 
only full-service national association representing registered nurses 
(RNs). Through our 54 constituent nursing associations, we represent 
RNs across the nation in all practice settings. Our membership includes 
advanced practice registered nurses who have been unable to treat 
patients covered by FECA.
    The mission of American College of Nurse-Midwives is to promote the 
health and well-being of women and infants within their families and 
communities through the development and support of the profession of 
midwifery as practiced by certified nurse-midwives, and certified 
midwives.
    The American Psychiatric Nurses Association (APNA) represents 
approximately 4900 psychiatric nurses in 50 states, with one 
international chapter. Our mission is to promote psychiatric-mental 
health nursing, improve mental health care for individuals, families 
and communities, and to inform health policy for the delivery of mental 
health services. APNA represents the largest group of psychiatric 
nurses serving as direct care providers, researchers, educators, and 
administrators. Our members specialize in the full range of mental 
health care and substance abuse treatment to adults, children, 
adolescents, and the elderly in rural and urban healthcare settings.
    The National Association of Clinical Nurse Specialists, founded in 
1995, exists to enhance and promote the unique, high value contribution 
of the clinical nurse specialist to the health and well-being of 
individuals, families, groups, and communities, and to promote and 
advance the practice of nursing. Members of NACNS benefits from 
national, regional, and local efforts of the Association to make the 
contributions of CNSs more visible.
    Innovative advances in health care make frequent headlines, but 
there is an equally innovative, if somewhat misunderstood, treatment 
for the cost and accessibility woes plaguing the Federal Employees 
Compensation Program. The Health Resources and Services Administration 
reports that 196,279 advanced practice registered nurses (APRNs) are 
prepared to serve the American populace. These APRNs are carving out a 
new role in delivering timely, cost-effective, quality health care, 
especially to chronically underserved populations such as the elderly, 
the poor, and those in rural areas.
    Some 60 to 80 percent of primary and preventive care traditionally 
done by doctors can be done by a nurse for less money. This is not to 
say nurses work cheaper, but their cost-effectiveness reflects a 
variety of factors related to the employment setting, liability 
insurance, and the cost of education.
    With an emphasis on health promotion and disease prevention and a 
proven record of providing excellent primary care in diverse settings, 
advanced practice nurses form a critical link in the solution to 
America's health care crisis. Removing the barriers to APRNs would pay 
a healthy dividend now and in the future.

Who Are APRNs?
    The advanced practice registered nurse (APRN) is an umbrella term 
given to a registered nurse (RN) who has attained advanced expertise in 
the clinical management of health problems. Typically, an APRN holds a 
master(s degree with advanced didactic and clinical preparation beyond 
that of the RN. Most APRNs have extensive practice experience as RNs 
prior to entering graduate school. Practice areas include, but are not 
limited to: family, gerontology, pediatrics, women's and adult health, 
neonatology, mental health, midwifery, and anesthesiology. Beginning in 
2003, APRNs must hold a master's degree to bill Medicare for their 
services. Under this umbrella fall four principal types of APRNs.

Nurse Practitioner (NP)
    <bullet> Number: 102,829; of which 14,643 are also trained as CNSs.
    <bullet> Education: According to the American Association of 
Colleges of Nursing, there are 329 schools in the US offering a 
master's or post-master's level NP programs.
    <bullet> What they do: Working in clinics, nursing homes, 
hospitals, or their own offices, NPs are qualified to handle a wide 
range of basic health problems. Most have a specialty--for example, 
adult, family, pediatric, psychiatric health care. NPs conduct physical 
exams, take medical histories, diagnose and treat common acute minor 
illnesses or injuries, order and interpret lab tests and X-rays, and 
counsel and educate clients. In all 50 states, and D.C., they may 
prescribe medication according to state law. Some work as independent 
practitioners and can be reimbursed by Medicare or Medicaid for 
services rendered. Others work for hospitals, health maintenance 
organizations (HMOs), or private industry.

Certified Nurse Midwife (CNM)
    <bullet> Number: 9,232.
    <bullet> Education: An average one and one-half years of 
specialized education beyond nursing school, either in an accredited 
certificate program, or like NPs, increasingly at the master's level. 
There are currently 43 nurse-midwifery programs in the U.S accredited 
by the American College of Nurse Midwives. Four of these are post-
baccalaureate certificate programs and 39 are graduate programs.
    <bullet> What they do: CNMs provide well-woman gynecological and 
low-risk obstetrical care including prenatal, labor and delivery, and 
post-partum care. In 2002, the most current year which data is 
available from the National Center for Health Statistics, there were 
307,527 CNM-attended births in the U.S. This accounts for over 10 
percent of all vaginal births that year. An ANA meta-analysis of CNM 
care found that nurse-midwives performed fewer fetal monitors, 
episiotomies, and forceps deliveries, administered fewer IVs, delivered 
fewer low birth weight and premature infants, and had shorter patient 
hospital stays. CNMs have prescriptive authority in 48 states, D.C., 
American Samoa, and Guam.

Clinical Nurse Specialist (CNS)
    <bullet> Number: 69,017; of which 14,643 are also prepared as NPs.
    <bullet> Education: Registered nurses with advanced nursing 
degrees--master's or doctoral--who are experts in a specialized area of 
clinical practice defined in terms of population (e.g.pediatrics, 
geriatrics, womens health), type of problem (e.g. pain, wound 
management, stress), setting (e.g. critical care unit, operating room, 
community clinic, emergency room) type of care (e.g. rehabilitation, 
end-of-life) or disease (e.g. diabetes, oncology, psychiatry). There 
are 218 U.S. schools offering master's or post-master's degrees for 
CNSs.
    <bullet> What they do: CNSs practice in hospitals, clinics, nursing 
homes, their own offices, and other community-based settings, such as 
industry, home care and HMOs. CNSs have clinical nursing expertise in 
diagnosis and treatment to prevent, remediate or alleviate illness and 
promote health within a defined specialty population. Besides 
delivering direct patient care, CNSs work in consultation, research, 
education, and administration. Some work independently or in private 
practice and can be reimbursed by Medicare, Medicaid, Tri-Care, and 
private insurers.

Certified Registered Nurse Anesthetist (CRNA)
    <bullet> Number: 29,844.
    <bullet> Education: Registered nurses who complete 2-3 years higher 
education beyond the required four-year bachelor's degree, as well as 
meeting national certification and recertification requirements.
    <bullet> What they do: In this oldest of the advanced nursing 
specialties, CRNAs administer more than 65 percent of all anesthetics 
given to patients each year, and are the sole providers of anesthetics 
in 85 percent of rural hospitals. Working sometimes with an MD 
anesthesiologist, but frequently independently, these nurse specialists 
work in almost every setting in which anesthesia is given operating 
rooms, dentist's offices, and ambulatory surgical settings.

APRNs Are Accessible
    They provide pre-employment physicals for employers, home health 
care to the elderly, health education in hospitals, schools, and 
community clinics, geriatric care in nursing homes, infectious disease 
control in prisons, pre- and post-natal care in inner-city and rural 
clinics, and psychotherapy in public and private practices. A study 
published in the July/August 2003 issue of the Annals of Family 
Medicine found that physician assistants, nurse practitioners and nurse 
midwives are more likely to work in underserved communities than are 
general internists, pediatricians, and obstetricians. This held true in 
both rural and inner city areas.

APRNs Deliver High Quality Health Care
    All advanced practice registered nurses must meet rigorous 
education, certification, and continuing education requirements. 
Standards of practice are set and monitored by nursing professional 
organizations. APRNs work collaboratively with physicians and other 
health professionals to coordinate health services for the best outcome 
for the patient.
    More than three decades of research have documented the high 
quality of care provided by APRNs. In 1986, The Congressional Office of 
Technology Assessment released a report requested by the Senate 
Appropriations Committee. This report, ``Nurse Practitioners, Physician 
Assistants, and Certified Nurse Midwives: A Policy Analysis,'' stated 
that NPs are ``especially valuable in improving access to primary care 
and supplementary care in rural areas and in health programs for the 
poor, minorities and people without health insurance.'' OTA found the 
quality of NP care to be ``as good as or better than care provided by 
physicians,'' and found NPs had ``better communication, counseling and 
interviewing skills than physicians have.''
    A study published in the January 5, 2000 Journal of the American 
Medical Association attests to the high quality services provided by 
APRNs. This study, entitled ``Primary Care Outcomes in Patients Treated 
by Nurse Practitioners or Physicians,'' compared the outcomes of 
patients randomly assigned to MDs and NPs within the same managed care 
organization. The authors found that patient outcomes and satisfaction 
were equivalent for NPs and MDs.
    A large-group study of patients seeking care for minor emergencies 
was published in the Lancet in 1999. The study compared the outcomes of 
patient's whose care was managed by NPs and physicians. The authors 
found that NPs were better than MDs in recording medical histories and 
that fewer patients seen by an NP sought unplanned follow-up for advice 
about their injury. There were no significant differences between NPs 
and MDs in the accuracy of examinations, adequacy of treatment, planned 
follow-up or requests for medical imaging.
    In June of 2002, the Medicare Payment Advisory Committee (MedPAC's) 
issued a report titled ``Medicare Payment to Advanced Practice Nurses 
and Physician Assistants.'' In its recommendation to Congress, MedPAC's 
reported that, ``.research studies show quality and outcomes of care 
[provided by CNMs] at least comparable to obstetricians and 
gynecologists.''
    A case in point is a May 1998 study from the National Center for 
Health Statistics (NCHS), Centers for Disease Control and Prevention 
(CDC) that was published in the Journal of Epidemiology and Community 
Health. It examined all single, vaginal births in the United States in 
1991 delivered at 35-43 weeks of gestation by either physicians or 
CNMs. After controlling for a wide variety of social and medical risk 
factors, the risk of experiencing an infant death was 19 percent lower 
for births attended by CNMs than for births attended by physicians. The 
risk of neonatal mortality (an infant death occurring in the first 28 
days of life) was 33 percent lower, and the risk of delivering a low 
birth weight infant was 31 percent lower. Mean birth weight was 37 
grams heavier for the CNM attended than for the physician-attended 
births. Low birth weight is a major predictor of infant mortality, 
subsequent disease, or developmental disabilities.
    The study also found that CNMs attended a greater proportion of 
women who are at higher risk for poor birth outcome: African Americans, 
American Indians, teenagers, unmarried women, and those with less than 
a high school education. Physicians attended a slightly higher 
proportion of births with medical complications. However, birth 
outcomes for CNMs were better even after socio-demographic and medical 
risk factors were controlled for in statistical analyses.

APRNs Are Cost-Effective
    Advanced practice nurses aren't low-priced doctor substitutes. They 
are first and foremost registered nurses, a profession with its own 
educational and licensing requirements, overseen by boards of nursing 
in all 50 states, that meet competency standards and continuing 
education requirements. APRNs are skilled in performing a wide range of 
health services, especially screening and preventive services, that if 
ignored, can lead to far more serious and costly health problems.
    A seminal study published in the Yale Journal on Regulation in 1992 
reviewed two decades of research on APRN services. The author found 
that the evidence is clear that APRNs provide care of comparable 
quality and lower cost than physicians. The study asserts that APRNs 
tend to prescribe fewer drugs, use less expensive tests, and select 
lower-cost treatments than MDs.
    In 1995, the Journal of the American Academy of Nurse Practitioners 
published the results of a year-long study that compared a family 
physician's managed practice with an NP's practice within the same 
managed care organization. The authors found that the NP's total 
annualized per member cost was approximately 50 percent less than the 
physician's. The NP practice resulted in far fewer emergency room 
visits and inpatient days.
    A study published in the June, 2003 issue of the American Journal 
of Public Health contained the results of a two and one-half year 
cohort study funded by the Agency for Health Care Research and Quality 
(AHRQ). The AHRQ researchers found that low-risk patients receiving 
midwifery care had birth success rates comparable to those who saw only 
physicians. In addition, the patients who received midwifery care 
experienced fewer cesarean sections, spent fewer days in the birth 
center/hospital, experienced less induction of labor, and received less 
technical intervention. The study also revealed similar morbidity, 
preterm birth, and low-birth weights among women receiving midwifery 
care and those seeing physicians.
    Based on a comparison of 1988 data from St. Paul Fire and Marine 
Insurance Company (then the country's largest provider of liability 
insurance for CRNAs), and 2004 data from CNA Insurance Company 
(currently the largest insurer of CRNAs) insurance premiums for nurse 
anesthetists have decreased nationally a total of 39 percent in the 88-
'04 time span. The decrease in CRNA malpractice insurance premium rates 
demonstrates the superb anesthesia care that CRNAs provide. The rate 
drop is particularly impressive considering inflation, an increasingly 
combative legal system, and generally higher jury awards.

Conclusion
    The Federal Employees Compensation Program is one of the last major 
health care programs to deny patients' access to APRNs. APRNs are 
covered medical providers in Medicare, Medicaid, Tri-Care and private 
insurance plans. They serve as medical providers in the Veterans 
Administration, the Department of Defense and the Indian Health 
Service. In fact, most federal employees have access to APRNs through 
their federal employee health benefit plan.
    Decades of research have shown that APRNs provide high quality 
services that often incur fewer costs than care provided by physicians 
alone. In addition, APRNs are more likely to provide services in 
medically underserved areas.
    For these reasons, the undersigned organizations urge the Committee 
to support efforts to provide Federal workers full access to the wide 
compliment of services provided by APRNs.
            American College of Nurse-Midwives.
            American Nurses Association.
            American Psychiatric Nurses Association.
            National Association of Clinical Nurse Specialists.
                                 ______
                                 

                 [From the New York Post, May 8, 2005]

               W. Plan Stiffs Heroes; Nixes WTC Comp Pay

                              By Sam Smith

    The Bush administration is reneging on its pledge of $175 million 
to fund workers' compensation claims for uninsured Ground Zero 
responders, The Post has learned.
    In its proposed 2006 budget, the administration says it will take 
back $120 million in funds granted in 2002 that have yet to be spent.
    ``These particular funds were set aside for workers' compensation 
needs that have not turned out to be as large as expected,'' said 
federal Office of Management and Budget spokesman Scott Milburn. ``The 
initial need for the funds has been met.''
    But advocates say the federal decision will leave workers in the 
lurch as they continue to get sick from their time at Ground Zero, and 
that the money may well be needed to pay future claims.
    ``I'm disgusted,'' said Joseph Pecuro, 38, of Toms River, N.J., a 
Ground Zero volunteer who filed for workers' compensation last August 
and is worried that the Bush administration's proposal will leave him 
without benefits.
    ``I can't even believe they would actually do that. They should be 
ashamed,'' he said.
    Pecuro, an ironworker, says his ailments forced him to quit working 
two years ago. ``I can't afford to buy my groceries,'' he said.
    Health professionals were concerned about the government's 
decision.
    ``We don't know what the long-term health effects will be,'' said 
Dr. Robin Herbert, director of Mount Sinai hospital's World Trade 
Center health-monitoring program.
    So far, the New York Workers' Compensation Board has paid out 
roughly $52 million in benefits to 113 claimants from the federal 
funding. Of those, 37 are receiving biweekly payments because of the 
severity of their injuries.
    All those payments--along with 94 claims currently being processed, 
another 400 filed with the state in anticipation of future health 
problems, and any future complaints--are jeopardized by the Bush 
administration's proposal.

                                 <all>

</pre></body></html>
